U.S. Small Business Administration
Office of Inspector General

   _________________________________


       Semiannual Report to Congress
               Spring 2006




       October 1, 2005 – March 31, 2006
  Inspector General Act Statutory Reporting Requirements

The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                      Page
Section 4(a)(2)    Review of Legislation and Regulations                                      27-28

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              5-28

Section 5(a)(2)    Recommendations with Respect to Significant Problems, Abuses
                   and Deficiencies                                                           48-51

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      41-47

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                58-64

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                     31-32

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               5-28

Section 5(a)(8)    Audit Reports with Questioned Costs                                           33

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                    Better Use                                                                   33

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                    Where No Management Decision Was Made                                        35

Section 5(a)(11)   Significant Revised Management Decisions                                   None

Section 5(a)(12)   Significant Management Decisions with Which
                    the OIG Disagreed                                                         None

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal Financial
                   Management Improvement Act of 1996                                          N/A
                    A Message From The Inspector General

I am pleased to present the Small Business Administration (SBA), Office of Inspector General (OIG),
Semiannual Report summarizing activities from October 1, 2005, through March 31, 2006.

Because I am new to the SBA OIG, having been sworn in on April 6, 2006, the work presented in this
report was actually accomplished by my deputy, Peter McClintock, who was Acting Inspector General
during this time, and the OIG staff. I appreciate their fine work in preparing this document. I look
forward to the new challenges I face as the Inspector General and am greatly impressed with the
accomplishments of this OIG. The OIG issued 20 reports with recommendations for improving Agency
operations, reducing fraud and unnecessary losses, and recovering funds. OIG investigations led to 23
indictments and 13 convictions of subjects who defrauded the Federal Government.

During this reporting period, an increasing amount of the OIG’s audit and investigations work was
directed toward the unprecedented devastation of the Gulf Coast hurricanes last year. By March 31,
2006, SBA had approved over $7 billion in disaster assistance program loans for the Gulf Coast area.
Using some of the $5 million Congress appropriated for OIG oversight of the Agency’s hurricane disaster
effort, the OIG has begun audits of the loan application approval process, loan disbursement activities,
and SBA’s Disaster Credit Management System (DCMS). Our investigators are focusing on allegations
of wrongdoing, including the identification of false statements by loan applicants. The OIG has published
three advisory memoranda on problems with the disaster program’s DCMS, and we are hiring additional
auditors and investigators on term appointments to be located in the New Orleans area.

In addition, the OIG reviewed the Supplemental Terrorist Activity Relief (STAR) loan program, under
which SBA provided loan guaranties to assist small businesses that were affected by the September 11,
2001, terrorist attacks and their aftermath. We found that SBA lacked sufficient controls to ensure that
lenders properly determined borrower eligibility; we could not determine from a review of lender loan
files whether 50 out of a random sample of 59 borrowers had been injured by the attacks or their
aftermath. Many borrowers that we contacted were unaware that they had received special financing.

The OIG also concluded several audits which show the impact of declining resources on the SBA’s
oversight of several programs. An audit of the monthly Section 7(a) loan reporting for SBA lenders
found that the Agency lacked sufficient controls and staffing to ensure accurate reporting by lenders
regarding loan status and outstanding guaranty loan balances; this could potentially compromise SBA’s
oversight of 7(a) lenders and risk management. Another audit found that neither SBA nor procuring
agencies monitored whether participants in the 8(a) program were complying with program requirements.

On the positive side, the Agency received an unqualified opinion on the Fiscal Year 2005 financial
statement audit. The OIG continues to work with the Agency to correct the material weakness in SBA’s
financial management and reporting controls.

I would like to thank Administrator Barreto for his support of the OIG’s work. I look forward to working
with SBA’s leadership in carrying out the OIG’s mission to fight waste, fraud and abuse and to promote
greater governmental efficiency.



Eric M. Thorson
Inspector General
                                                       Table of Contents


Overview of SBA and the OIG ..................................................................................................................... 1

Agency Management Challenges.................................................................................................................. 3

Significant OIG Activities ............................................................................................................................ 5

                     Disaster Loans........................................................................................................................ 5

                     Small Business Access to Capital ........................................................................................ 11

                     Small Business Development, Contracting, Education, and Training ................................. 17

                     Agency Management ........................................................................................................... 22

                     Other Significant OIG Activities. ........................................................................................ 26

Statistical Highlights................................................................................................................................... 29

Appendix

       I.         OIG Reports Issued ................................................................................................................. 31

      II.         OIG Reports with Questioned Costs ....................................................................................... 33

     III.         OIG Reports with Recommendations that Funds Be Put to Better Use .................................. 33

     IV.          OIG Reports with Non-Monetary Recommendations ............................................................. 34

      V.          OIG Reports from Prior Semiannual Periods with Overdue Management
                  Decisions as of March 31, 2006 .............................................................................................. 35

     VI.          OIG Reports Without Final Action as of March 31, 2006 ...................................................... 37

    VII.          Significant Recommendations from Prior Semiannual Reporting Periods
                  Without Final Action as of March 31, 2006............................................................................ 41
  VIII.           6-Month Significant Recommendations Summary as of March 31, 2006 .............................. 48

     IX.         List of Events/Activities Where SBA Used its Cosponsorship Authority
                 Over the Last 6 Months ........................................................................................................... 52

      X.          6-Month Legal Actions Summary ........................................................................................... 58

     XI.          OIG Organizational Chart ....................................................................................................... 65
                                              Table of Contents


Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

           SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
           Business Act, Section 4(h) ...................................................................................................... 20

           SBDC Surveys—Small Business Act, Section 21(a)(7) ....................................................20-21

           SBA Gift Authority—Small Business Act, Section 4(g)(2).................................................... 24
                          Overview of SBA and the OIG

The Small Business Administration

The Small Business Administration (SBA) was established in 1953 to assist small businesses from start-
up through the many stages of growth. The Agency’s two major goals are to help small businesses
succeed and to assist victims in recovering from disasters. SBA offers many services to entrepreneurs
through its Offices of Capital Access, Entrepreneurial Development, Government Contracting and
Business Development, and Disaster Assistance. Services provided include, but are not limited to:
(1) expanding access to financing through the Agency’s various business and disaster lending programs;
(2) promoting Federal procurement opportunities; and (3) providing counseling and other information to
help small business growth. SBA’s programs are delivered by a network of field offices in every state,
the District of Columbia, the U.S. Virgin Islands, Guam, American Samoa, and Puerto Rico. SBA’s
appropriation for Fiscal Year (FY) 2006 is $533 million (plus an additional $446 million from the disaster
supplemental). As of March 31, 2006, SBA had 2,121 employees (including Office of Inspector General
(OIG) personnel but excluding disaster-funded employees). There are 3,775 temporary and permanent
disaster employees, excluding contractors.


The Office of Inspector General

The SBA OIG was established by the Inspector General (IG) Act of 1978. Pursuant to this authority, the
OIG’s four divisions perform the following functions nationwide.

    •   The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •   The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties, and conducts the name check program, which provides SBA officials
        with character-eligibility information on loan applicants and other potential program participants.

    •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

    •   The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG is headquartered in Washington, DC, and has field audit staff in Atlanta, Chicago, Dallas, and
Los Angeles. Investigative field staff are located in Atlanta, Chicago, Dallas, Denver, Houston, Kansas



                                                    1
                           Overview of SBA and the OIG

City, Los Angeles, Miami, New York, Philadelphia, Seattle, and Washington, DC. An organization chart
for the OIG is located in Appendix XI.

Work During This Reporting Period

As of March 31, 2006, the OIG had 93 staff on-board. The OIG’s FY 2006 appropriation is $13.7
million, including a $1.5 million transfer for disaster assistance oversight activities (net of rescissions).
The OIG has a separate appropriation of $5 million for Gulf Coast disaster oversight.

The OIG’s responsibility is to improve SBA programs by identifying key issues facing the Agency,
promoting a high level of integrity, and, if a deficiency is identified, ensuring that corrective action is
taken. We continue to focus on serving the needs of our customers and stakeholders and on safeguarding
SBA resources from waste, fraud, and abuse.

This is the first semiannual report published under the OIG’s new FY 2006-2011 Strategic Plan. During
this reporting period, OIG work focused on the new strategic goals of (1) improving the economy,
efficiency, and effectiveness of SBA programs and operations; and (2) promoting and fostering integrity
in SBA programs and operations. Using this framework, the OIG concentrated on critical risks facing
SBA. These include (1) risks of financial losses due to SBA's downsizing, centralization, and limited
oversight and controls; (2) risks to SBA's performance of its statutory mission to promote small business
development and Government contracting; and (3) risks associated with SBA's information technology
and financial management systems, and other internal operations.

The challenges and risks facing the Agency increased significantly with the devastation from the Gulf
Coast hurricanes. The OIG has begun a series of audits on the management of SBA’s disaster assistance
process, the loan application approval process, loan disbursement activities, use of proceeds, and SBA’s
Disaster Credit Management System (DCMS). The Investigations Division is directing its efforts to
detect and deter fraud related to the SBA disaster loan program.

OIG efforts and accomplishments during the first half of FY 2006 are summarized in the following pages.
All audit and other reports issued during this reporting period are listed in Appendix I. All investigative
actions are summarized in Appendix X.




                                                     2
                        Agency Management Challenges

In accordance with the Reports Consolidation Act of 2000, each fiscal year the OIG identifies the most
important management and performance challenges facing the Agency for inclusion in SBA’s
consolidated Performance and Accountability Report.
This list of Management Challenges represents the                 This list of Management Challenges
areas that the OIG considers to be particularly         represents  the areas that the OIG considers to
vulnerable to fraud, waste, abuse, or mismanagement,        be particularly  vulnerable to fraud, waste,
or that otherwise pose significant risk to the Agency,    abuse, or  mismanagement,    or that otherwise
its operations, or its credibility. Each Management              pose significant risk to the Agency, its
Challenge generally has been the subject of one or                         operations, or its credibility.
more OIG or Government Accountability Office
(GAO) reports, or has resulted from our general knowledge of Agency management issues. For each
Management Challenge, we provide the Agency with recommended remedial actions together with our
assessment of Agency progress on each action item during the preceding fiscal year. The OIG updates
the Management Challenges each year so that they accurately reflect the current Challenges facing the
Agency.

In its FY 2006 Report, the OIG eliminated two Management Challenges that appeared in the FY 2005
Report. These two Management Challenges were: “SBA needs to improve its managing for results
processes and performance data;" and “SBA needs to enforce its rules to deter firms receiving small
business set-aside, 8(a), or small disadvantaged business price evaluation preference contracts from
passing through large portions of the procurement to other firms."

This year’s report contains one new Management Challenge that was published in February 2005: "Flaws
in the procurement process allow large firms to receive small business awards and agencies to receive
small business credit for contracts performed by large firms."

As in prior years, the OIG used a color scoring scheme to show Agency progress in addressing the actions
needed to resolve the Management Challenges. For FY 2006, in addition to the color scores of red,
yellow, and green, the OIG implemented a fourth score color—orange—which denotes that the Agency
has made some progress on a particular "action needed” item in a Management Challenge.

The most serious Management Challenges that face SBA during FY 2006 are as follows:

    •   Flaws in the Federal procurement process allow large firms to receive small business awards and
        agencies to receive small business credit for contracts performed by large firms.
    •   SBA faces significant challenges in financial management and reporting that affect its ability to
        provide reliable, timely and accurate financial information.
    •   Information systems security needs improvement.
    •   Maximizing program performance requires that SBA fully develop, communicate, and implement
        a human capital management/transformation strategy.
    •   The Guaranty Purchase Center needs better controls over the business loan purchase process.
    •   SBA needs to continue improving lender/participant oversight.
    •   The Section 8(a) Business Development program needs to be modified so more participating
        companies receive access to business development, standards for determining economic
        disadvantage are clear and objective, and more eligible companies receive contracts.



                                                    3
                      Agency Management Challenges

   •   The current practices of the Small Business Investment Company (SBIC) program place too
       much risk on taxpayer money.
   •   Preventing loan agent fraud requires additional measures.
   •   SBA needs to update its system of directives to provide proper guidance and control over its
       operations.

While Agency progress on a number of the Management Challenges has been encouraging, much more
remains to be done.         By their nature, these
Management Challenges require continued long-term             By their nature, these Management
commitment and effort by the Agency. For more             Challenges require continued long-term
information on the OIG’s assessment of SBA’s               commitment   and effort by the Agency.
Management Challenges, please review the report at
http://www.sba.gov/ig/challenges.html.




                                                4
                              Significant OIG Activities

                                         Disaster Loans
The disaster loan program, a major SBA lending program, is designed to respond to the long-term
recovery needs of disaster victims. By law, SBA is authorized to make two types of disaster assistance
loans: (1) physical disaster loans, which are a primary source of funding for permanent rebuilding and
replacement of uninsured real and personal property belonging to homeowners, renters, businesses of all
sizes, and nonprofit organizations; and (2) economic injury disaster loans, which provide necessary
working capital to small businesses until normal operations can be resumed after a disaster. This highly
visible program is vulnerable to fraud and unnecessary losses because loan transactions are expedited in
order to provide quick relief to disaster victims.

On August 29, 2005, Hurricane Katrina devastated the Gulf Coast regions of Louisiana, Mississippi, and
Alabama. Katrina was the third most intense hurricane to hit the United States in recorded history, and
the sixth strongest recorded in the Atlantic Basin. It was quickly followed by Hurricanes Rita and Wilma,
creating further loss of lives and property in Florida and Texas. Given the broad scope of SBA’s Gulf
Coast hurricane disaster assistance efforts, OIG audit and investigations work will focus heavily on this
area for the foreseeable future.


OIG Emphasizes Oversight of SBA Disaster Assistance

As of March 31, 2006, SBA had approved over $7 billion in low-interest, taxpayer-backed disaster loans
to homeowners, renters, and businesses affected by the Gulf Coast hurricanes. While SBA continues to
approve loans at a record rate, Congress has been critical of the timeliness of SBA’s disbursement of
loans. SBA has reported that more than $500 million in disaster loans has been disbursed and that the
Agency is attempting to expedite disbursement of additional loans.

 In December 2005 Congress appropriated $5 million for the OIG to conduct work on the Agency’s
                                              disaster loan program in the Gulf region. These funds will
In December 2005 Congress                     allow us to secure additional audit and investigative
appropriated $5 million for the OIG to        resources needed to provide effective oversight of SBA
conduct work on the Agency’s disaster         disaster assistance efforts in the Gulf region. Given the
loan program in the Gulf region.              scope of SBA’s hurricane disaster response efforts, and the
                                              fact that many borrowers will not have to begin repaying
 disaster loans until 2007, we anticipate a considerable amount of work for a number of years to come.
 The OIG plans to establish an office in New Orleans to provide better access to critical locations.

As discussed below, the OIG has begun audits to identify whether there are unnecessary delays in the loan
application approval and disbursement process and to review SBA’s Disaster Credit Management System
(DCMS), the Agency’s disaster loan database. The OIG has
also planned a host of audits which will focus on the                 The OIG has also planned a host of
complete cycle of disaster loans relating to the Gulf                       audits which will focus on the
hurricanes. Areas of focus include: SBA’s loan origination,                complete cycle of disaster loans
closing and disbursement; whether borrower use of                          relating to the Gulf hurricanes.
proceeds is consistent with SBA’s authorization; Agency
loan servicing; and, after loan default, SBA’s efforts to recover the debt through liquidation. Processing
reviews will include a focus on whether SBA has proper controls to provide reasonable assurance that


                                                    5
                               Significant OIG Activities

loans are made to eligible recipients and that the proceeds are used for the intended purposes. Heightened
scrutiny will also be given to loans that go into default quickly (e.g., after the first payment becomes due),
as early defaults are often indicative of origination and servicing problems by the Agency, as well as
possible borrower fraud. In addition, reviews will be performed to ensure that SBA is devoting adequate
resources, and has established sufficient controls, to maximize recovery of taxpayer dollars through the
liquidation process.

Also in the audit area, the OIG is working to ensure the integrity of the reporting process for the various
hurricane-related contracts that Federal agencies report as being awarded to small businesses. The OIG
                                                 has drafted and circulated for comment a review guide
…the OIG is working to ensure the                for other OIGs to use in the assessment of procuring
integrity of the reporting process for the       agency compliance with small business contracting
various hurricane-related contracts that         requirements. We have also coordinated with the GAO
Federal agencies report as being awarded         on its recently-initiated review of small business
to small businesses.                             procurement in the Gulf region.

                                                  The OIG’s Investigations Division is focusing on
detecting and deterring fraud related to the SBA disaster loan program. This effort includes proactive
measures to identify: entities wrongfully receiving duplicate payments; potential fraud through early
review of loan data for fraud indicators; and character misrepresentations through random sampling of the
criminal background information of loan recipients.

Loan Approval and Disbursement. The OIG has an ongoing               review of the Agency’s disaster loan
approval and disbursement process to determine if disaster
loans are being processed and disbursed in a timely manner           The OIG has an ongoing review of the
and, if not, the cause of the delays. In addition, the OIG is        Agency’s disaster loan application and
looking at external impediments, such as local governments             disbursement process to determine if
and other Federal Agency requirements that may unduly                disaster loans are being processed and
delay disaster loan funds that home and business borrowers             disbursed in a timely manner and, if
need to initiate the rebuilding process.                                         not, the cause of the delays.

Review of DCMS. We are also looking at the disaster loan program’s DCMS application, which was
designed for 1,500 concurrent users processing SBA disaster loans. SBA has upgraded the system to
support in excess of 4,000 users and plans to implement a significant hardware and software upgrade to
support approximately 10,000 users. The OIG will review the DCMS upgrade to ensure that forecasted
needs are appropriately addressed and the application is developed in accordance with SBA’s System
Development Life Cycle standards. We have already issued three management advisory reports
identifying deficiencies, which are discussed in the next section.

Criminal Investigations. The OIG is investigating multiple allegations of wrongdoing related to the Gulf
hurricanes that were received during this reporting period. Thus far, allegations involve claims for
                                                 property damage that never occurred or for property
The OIG is investigating multiple allegations    not owned by the borrower during the disaster; false
of wrongdoing related to the Gulf hurricanes     statements about prior criminal records; wrongful
that were received during this reporting         collection of Federal Emergency Management Agency
period.                                          (FEMA) payments while applying for an SBA loan;
                                                 attempted bribery of SBA officials; misuse of SBA



                                                      6
                               Significant OIG Activities

loan funds for gambling or other unauthorized purposes; and overstatement of financial losses. Four
cases have been referred for criminal prosecution. We expect instances of fraud to increase significantly
as more loan disbursements are made to borrowers and when the 12-month deferment of principal and
interest payments for many disaster loans comes to an end.

The OIG has also initiated several proactive projects to identify criminal misconduct by disaster
borrowers. One project is designed to identify
borrowers who submit false statements on their               The OIG has also initiated several proactive
SBA applications for disaster assistance business              projects to identify criminal misconduct by
loans relating to past criminal records. The project                                            borrowers.
seeks to ensure compliance with SBA’s policy of
preventing assistance to persons of poor character. For this project, the OIG will conduct criminal history
checks on a statistical sample of disaster loans.

A second project is a joint effort with the Department of Homeland Security (DHS) OIG and other OIGs
to identify applicants for disaster assistance loans who did not reside in the affected areas during the Gulf
hurricanes. Initial steps include verifying employment records of certain subjects and examining names
of persons currently residing in Texas who have applied for SBA and/or FEMA hurricane assistance for
losses allegedly incurred in other states.

A third project is early fraud detection for hurricane-related disaster assistance loans. Through data-
                                                       mining and analysis of DCMS data, an OIG team
Through data-mining and analysis of DCMS               will proactively identify potential fraud in the
data, an OIG team will proactively identify            disaster loans, seeking to prevent fraud whenever
potential fraud in the disaster loans, seeking to      possible. Fraud indicators will be similar to those
prevent fraud whenever possible.                       used by an OIG group examining regular business
                                                       loans.    Where indicators exist, the OIG will
investigate and bring to prosecution culpable parties.

The OIG is also working with the multi-agency PCIE Hurricane Katrina Fraud Task Force to identify
potential duplication of benefits where victims may receive excess aid resulting from unreported or
underreported     income,     unreported      insurance        The OIG is also working with the multi-
compensation, or other fraudulent activities. We are     agency PCIE Hurricane Katrina Fraud Task
coordinating with the DHS OIG to address error                Force to identify potential duplication of
correction controls between FEMA’s National              benefits where victims may receive excess aid
Emergency      Management       Information     System     resulting from unreported or underreported
(NEMIS) and SBA’s DCMS, and to prevent                    income, unreported insurance compensation
duplication of disaster benefits to disaster victims in                  or other fraudulent activities.
accordance with Federal guidelines. The OIG is also
coordinating data-sharing with the Department of Housing and Urban Development to identify recipients
of duplicate benefits.

Further, the OIG is coordinating with the Federal IG community on inter-agency Gulf hurricane audit and
investigations efforts. Prior to Hurricane Katrina, the President’s Council on Integrity and Efficiency
(PCIE) and the Executive Council on Integrity and Efficiency (ECIE) had established a Homeland
Security Roundtable under the leadership of the DHS IG. This Roundtable took on the role of
coordinating the submission of reports regarding Gulf hurricane recovery oversight by the IG community.



                                                     7
                               Significant OIG Activities

The OIG contributed disaster work plans to the first PCIE/ECIE 90-day “Report to Congress on Oversight
of Gulf Coast Hurricane Recovery” in December 2005. Subsequent to that report, we also provided
Congress with results of completed reviews published.

Finally, the OIG has undertaken the following efforts:

    •   The OIG’s Office of Security Operations has conducted background investigations on thousands
        of employees who have been hired for SBA’s loan processing and operations for the Gulf
        hurricane disasters. This office has also conducted name checks and FBI fingerprint checks on
        hundreds of borrowers whose disaster loan applications indicate a criminal history. The results of
        these checks are reported to SBA program officials for character eligibility determinations.

    •   The OIG provided fraud awareness information briefings to over 700 employees at SBA’s Fort
        Worth (Texas) Disaster Center, and OIG fraud hotline posters were disseminated throughout SBA
        field disaster centers in the Gulf states so that SBA officials and the public could readily report
        fraud.

    •   The OIG also issued an information notice to all SBA employees announcing the Hurricane
        Relief Fraud Hotline and requesting that they increase their awareness of fraudulent activities as
        they receive and process disaster-related loans and provide other disaster-related assistance, and
        to report any fraudulent activities to the hotline.


Data Exchange Errors Between FEMA and SBA Hamper Efforts to Aid Disaster Victims

Information systems within SBA and FEMA must interface properly to ensure timely and appropriate
assistance to Gulf hurricane disaster victims. An individual
requesting assistance initially registers in FEMA’s NEMIS        Information systems within SBA and
and may be referred to DCMS based upon indications of        FEMA    must interface properly to ensure
income, household size or self-employment, and               timely and appropriate assistance to Gulf
indications of loss of real or personal property.                          hurricane disaster victims.

 Currently, SBA’s DCMS provides daily file updates (for example, “loss verified,” “loan approved” or
 “loan disbursed”) to NEMIS. FEMA uses that information to update NEMIS and determine if the disaster
                                                                victims are eligible for further FEMA
…during data transfers between DCMS and NEMIS                   assistance. Our audit work identified that
complete data controls are not in place to: (1) identify        during data transfers between DCMS and
that an error had occurred; (2) flag affected records;          NEMIS complete data controls are not in
and (3) monitor and correct errors through a log and            place to: (1) identify that an error had
related feedback loop.                                          occurred; (2) flag affected records; and
                                                                (3) monitor and correct errors through a log
 and related feedback loop. SBA estimated that, since DCMS was implemented, it has had to review and
 correct roughly 83,000 update records. We recommended that SBA work with FEMA to improve and
 formalize the error resolution process between the two systems. Error correction delays have resulted in
 disaster victims not always receiving needed assistance in a timely manner.




                                                     8
                              Significant OIG Activities

Disaster Loan System Referral Procedures and System Errors Delay Assistance to Recent
Hurricane Victims

The magnitude of the 2005 Gulf hurricane disasters has resulted in an unprecedented need to provide
relief to eligible victims in a timely and
effective manner.         The DCMS was                  The DCMS was implemented shortly before the
implemented shortly before the outbreak of             outbreak  of the Katrina disaster, resulting in an
the Katrina disaster, resulting in an            unparalleled volume  of applications being processed in
unparalleled volume of applications being                                       a new computer system.
processed in a new computer system. The
DCMS application has a direct interface with NEMIS to provide disaster assistance. Generally FEMA
registers disaster victims in NEMIS and refers them to SBA as part of its disaster relief and emergency
assistance programs.

 In two reviews during this reporting period, the OIG found that SBA and FEMA need to reconsider
 procedures regarding automatic submission of disaster loan applications to DCMS. For example,
                                                  FEMA’s Individual Assistance Center Online
In two reviews during this reporting period,      Registration forwarded to SBA disaster loan
the OIG found that SBA and FEMA need to           applications indicating “$0 Income,” or with the pre-
reconsider procedures regarding automatic         disaster income field left blank, needlessly increasing
submission of disaster loan applications to       the volume of referrals to SBA. We also found that
DCMS.                                             SBA mailed loan applications to disaster victims that
                                                  normally would not be referred to SBA’s disaster loan
 program, and that the increased application volume delayed responses to those applicants who actually
 were qualified for the program.


Financial Statements and Information Systems Controls Audits for FY 2005 Address Disaster
Program Issues

SBA’s FY 2005 financial statement audit, which                    …the Atlanta Area Disaster Office had
assesses the adequacy of internal controls over             inadequate controls over the approval of time
financial reporting, found that improvement was                  and attendance for approximately 2,300
needed in the management of disaster program                     temporary personnel working in remote
express mail expenses and employee time and                                    locations of disaster sites.
attendance. The audit found that the Atlanta Area
Disaster Office had inadequate controls over the approval of time and attendance for approximately 2,300
temporary personnel working in remote locations of disaster sites. In addition, inadequate controls were
in place regarding use and reconciliation of Federal Express shipping vouchers. The rapid increase in
temporary personnel to administer disaster loans increases the importance of controls over these areas,
because these processes are inherently at high risk for abuse, which may result in improper payments or
misuse of funds or assets.

…controls in the DCMS were not adequate          The audit of SBA’s FY 2005 information systems
to ensure that management had determined         controls determined that controls in the DCMS were not
what activities and files were considered        adequate to ensure that management had determined
sensitive and required logging.                  what activities and files were considered sensitive and



                                                    9
                               Significant OIG Activities

required logging. The audit report recommended independent management review of database and
application logs to ensure that potential security violations are analyzed and investigated. The report also
recommended that the number of individuals granted “SuperUser” access be reduced to the minimum
number possible, and that procedures be established granting system access according to responsibilities
and duties.


OIG Finds Fraud Perpetrated by Recipients of September 11, 2001, Disaster Loans

 Part of the OIG effort to fight fraud involves            Part of the OIG effort to fight fraud involves
 examining the over $1.1 billion in disaster                 examining the over $1.1 billion in disaster
 assistance loans disbursed in response to the             assistance loans disbursed in response to the
 September 11, 2001, terrorist attacks. As is the                  September 11, 2001, terrorist attacks.
 case with other disaster assistance loans, the
 emphasis on timely claim disbursements can create opportunities for unscrupulous applicants to commit
 fraud. In addition, problems with this type of disaster assistance loan are not immediately evident,
                                                     because repayments are typically deferred. The
…problems with…disaster assistance loan(s) are       OIG has investigated and obtained the prosecution
not immediately evident, because repayments are      of numerous parties that committed fraud to obtain
typically deferred.                                  9/11 disaster loans.

In one recent case, two former co-owners of a New York City financial management firm had applied for
a $1 million 9/11 disaster assistance loan. A joint investigation by the OIGs of SBA and the Social
Security Administration determined that the firm was not located near the World Trade Center, and there
was no evidence that the firm had been in business on the date of the attacks. Both co-owners were
indicted for falsely claiming physical damage and economic injury. Thus far, one has pled guilty to
conspiracy, false statements, and mail fraud. The loan, however, was denied because one co-owner never
filed Federal income tax returns.

In another recent 9/11 case, the former president of a New York business received a $646,900 disaster
assistance loan for his company, which sold motor vehicles and parts to the United Nations. A total of
$548,300 was to have been used to pay off vendors. In a joint investigation with the U.S. Postal
Inspection Service, the OIG determined that the borrower forged vendors’ endorsements on two-party
checks payable to his firm and to the vendors for a total of $131,600 and then transferred most of the
funds to a new business. Moreover, the investigation found that he made false statements to SBA when
he applied for additional funding, stating that he had used all previous funds according to the loan
authorization. The individual was indicted for mail fraud, making material false statements, and forging
endorsements on U.S. Treasury checks. In addition, the former president of a foreign mining company
pled guilty to being an accessory after the fact by assisting the borrower in negotiating one of the
fraudulently received two-party checks.




                                                    10
                              Significant OIG Activities

                           Small Business Access to Capital
SBA has a financial assistance portfolio of small business loans and financings exceeding $61 billion.
With more than 5,000 lenders authorized to make SBA loans, the Section 7(a) Loan Guaranty Program is
SBA’s largest lending program and the principal vehicle for providing small businesses with access to
credit they cannot obtain elsewhere. This program is vulnerable to fraud and unnecessary losses because
it relies on numerous third parties (including borrowers, loan agents, lenders, and SBA) to complete loan
transactions. Approximately 80 percent of loans guarantied annually by SBA are made by lenders to
whom SBA has delegated loan-making authority. Additionally, SBA has centralized many loan functions
and reduced the number of staff performing these functions. As SBA has placed more responsibility and
independence on its lenders, the importance of OIG oversight has increased significantly.

The Small Business Investment Company (SBIC) program was established in 1958 to stimulate and
supplement the flow of private equity capital and long-term debt to small business concerns using private
venture capital firms and SBA-guarantied funding. Small and emerging contractors who cannot obtain
surety bonds through regular commercial channels can apply for SBA bonding assistance under the
Surety Bond Guaranty Program.


OIG Unable to Determine Whether Supplemental Terrorist Activity Relief Loans Were Directed
Toward Small Businesses Affected by the 9/11 Terrorist Attacks

In response to concerns about the impact of the terrorist attacks of 9/11 on small businesses, in January
2002 Congress authorized SBA to guaranty up to $4.5 billion in Supplemental Terrorist Activity Relief
(STAR) loans made by lenders to small businesses “adversely affected” by the 9/11 attacks and their
aftermath. Several news articles published in September 2005 raised concerns about STAR loans that
appeared to have been made to borrowers that were not affected by the 9/11 attacks. As a result, the SBA
Administrator and the Chair of the U.S. Senate Committee on Small Business and Entrepreneurship
requested an OIG audit to determine if STAR loans went to qualified borrowers.

 The audit found that eligibility could not be readily determined for 85 percent of the STAR loans
 reviewed because the lender files did not contain information sufficient to demonstrate that borrowers
                                                         were adversely affected by the 9/11 attacks
…eligibility could not be readily determined for 85      and their aftermath.           Although SBA
percent of the STAR loans reviewed because the           established criteria for documenting STAR
lender files did not contain information sufficient to   loan eligibility, it did not establish adequate
demonstrate that borrowers were adversely affected by    internal controls and oversight to ensure that
the 9/11 attacks and their aftermath.                    only eligible borrowers obtained loans. SBA
                                                         also did not require lenders to provide their
 written justifications for making STAR loans. As a result, funds appropriated for guaranties on loans
 made to small businesses adversely affected by the terrorist attacks may not have been used for that
 purpose.




                                                   11
                               Significant OIG Activities

In response to the audit report, SBA agreed to        SBA…agreed to implement procedures to ensure
implement better procedures, internal controls, and       that STAR loan justifications are adequately
oversight to reduce the potential for misuse of              documented before a guaranty is honored.
funds in future special programs where 7(a) loan
funds are used for nationwide disaster relief. SBA also agreed to implement procedures to ensure that
STAR loan justifications are adequately documented before a guaranty is honored.

Dishonest Loan Agents Continue to Exploit SBA Loan Programs

 The OIG continues to identify loan agent fraud as a Management Challenge for the Agency. A loan agent
                                        is employed and compensated by an applicant or lender to prepare
…fraudulent loans often default
                                        an SBA loan application and/or refer an applicant to a lender (or a
for non-payment, and…SBA must
                                        lender to an applicant). Honest loan agents help small businesses
then purchase the guarantied
                                        gain access to capital, but dishonest agents have perpetrated
portions of the loans.
                                        fraudulent schemes involving millions of dollars in loans. Such
 fraudulent loans often default for non-payment, and, unless a lender was aware of the fraud, SBA must
 then purchase the guarantied portions of the loans.

In addition, unscrupulous loan agents can conspire with others to commit crimes, sometimes for
significant dollar amounts. For example, during this reporting period a loan broker who recruited
borrowers in Texas as part of a conspiracy to falsely obtain nine SBA-guarantied convenience store loans
totaling $9.5 million was sentenced to 41 months incarceration and 3 years probation, and ordered to pay
$8,884,253 in restitution with four other co-conspirators. The broker had previously been indicted for
bank fraud, conspiracy, and money laundering. The OIG is conducting this investigation jointly with the
Federal Bureau of Investigation (FBI).

The OIG’s “FY 2006 Report on the Most Serious Management Challenges Facing the Small Business
Administration” discusses measures necessary to prevent loan agent fraud. SBA does not know the
magnitude of the loan agent problem because it has little            ….the Agency needs to systematically
information on agent involvement with SBA loans.                   identify all loan agents and track their
Accordingly, the Agency needs to systematically                         association with individual loans.
identify all loan agents and track their association with
individual loans.     Such measures take on added
importance as general oversight of loans shifts to lenders who may vary significantly in their due
diligence, and because each loan agent has opportunities for contact with multiple lenders.


Borrowers Falsify Equity Injections to Obtain Loans

Agency requirements generally mandate that loan             Agency requirements generally mandate that
applicants inject their own assets into the project         loan applicants inject their own assets into the
being financed. This “equity injection” gives the           project being financed.          This “equity
borrowers a tangible stake in the project’s success.        injection” gives the borrowers a tangible stake
                                                            in the project’s success.         Many OIG
                                                            investigations have uncovered borrowers who
falsely claim to have made equity injections in order to obtain SBA financing.




                                                       12
                              Significant OIG Activities

For example, the owner of several Texas gas stations was arrested by OIG and Texas Alcoholic Beverage
Commission (TABC) agents for alleged false statements and the unauthorized use of a TABC permit.
After the owner’s arrest, he admitted to falsifying an equity injection to obtain a $640,000 SBA-
guarantied loan to purchase four food stores, and to transferring ownership of the properties without
notifying SBA. A second man was also arrested for alleged false statements and for the unauthorized use
of a TABC permit. The second man had entered into an agreement with the owner to purchase one of the
food stores without disclosing the sale to either SBA or the lender. The second man then allegedly sold
the store to a third party but continued to renew the TABC permit while claiming ownership of the store.
The OIG is currently conducting this joint investigation with the TABC. Additional arrests and
prosecutions are anticipated.

In another case, an OIG investigation determined that two former owners of a Missouri day care center
had falsified making a required $75,000 equity injection in order to obtain a $311,000 SBA-guarantied
loan. The business never opened, and the loan
quickly defaulted, resulting in a loss of over        …an OIG investigation determined that two former
$154,000 after liquidation of collateral. One          owners of a Missouri day care center had falsified
owner was sentenced to 5 years probation after     making a required $75,000 equity injection in order to
pleading guilty to making false statements to                   obtain a $311,000 SBA-guarantied loan.
the lender and SBA. The other owner was
sentenced to 3 years probation after pleading guilty to being an accessory after the fact to fraud. Both
owners were also sentenced to make restitution in the amount of the loss. SBA debarred the two
individuals from participating in Federal programs or procurements for 3 years.


SBA Loan Programs Remain Vulnerable to False Claims of Citizenship

Investigations by the OIG and other law enforcement agencies continue to uncover well-organized
schemes by borrowers and loan agents in which borrowers falsely claim to be U.S. citizens to obtain
                                              SBA-guarantied loans. Such loans often default
…loans to ineligible borrowers can make       quickly, with millions of dollars at risk (an individual
financing unavailable to honest prospective   loan can exceed $1 million). Moreover, loans to
borrowers. Compounding the problem is         ineligible borrowers can make financing unavailable to
SBA’s increasing dependence on lenders to     honest prospective borrowers. Compounding the
administer its loan programs.                 problem is SBA’s increasing dependence on lenders to
                                              administer its loan programs.

Recently, the president of a Michigan gas station and convenience store was indicted for making false
statements to SBA and a lender in order to obtain a $1.175 million SBA-guarantied loan. He signed
documents indicating he was a U.S. citizen; however, a joint investigation with the DHS determined that
he was neither a U.S. citizen nor a lawful permanent resident when he applied for the loan. In addition,
the president and secretary of the firm were indicted for allegedly misrepresenting that they had made an
equity injection of $130,000.




                                                   13
                               Significant OIG Activities

Variety of Fraudulent Schemes Used to Obtain SBA-Guarantied Loans

In addition to the fraudulent schemes previously mentioned, criminals use a variety of tactics to obtain
SBA-guarantied loans. These include
false and fraudulent documents, fictitious   …criminals use a variety tactics to obtain SBA-guarantied
asset claims, non-disclosure of prior             loans. These include false and fraudulent documents,
criminal records or other SBA loans,             fictitious asset claims, non-disclosure of prior criminal
misuse of loan proceeds, and manipulated      records   or other SBA loans, misuse of loan proceeds, and
property values. Such tactics increase the                                  manipulated property values.
chances of monetary losses.

For example, the owner of two Texas restaurants fraudulently obtained two SBA-guarantied loans and a
line of credit totaling $1,078,500. In order to influence the financial institutions to approve the financing,
the owner inflated his personal property values and net worth, and then utilized financial proceeds from
the loans for personal expenses. He was sentenced to 5 years probation and ordered to pay over $1.1
million in restitution. The OIG conducted this investigation jointly with the FBI and the Internal Revenue
Service (IRS).

In another case, a joint investigation with the FBI disclosed that the former owner of a California market
falsified Federal income tax returns as part of his application for a $1 million SBA-guarantied loan. He
also submitted altered Federal income tax returns to another bank in order to obtain a $580,000 home
loan. None of the submitted tax returns matched the returns filed with the IRS. After his indictment in
June 2000, the individual became a fugitive and was apprehended in 2002. He pled guilty to two counts
of making false statements to a federally insured financial institution. During the reporting period, the
individual was sentenced to over 12 months in prison, a $10,000 fine, restitution of $197,000, and 5 years
supervised probation.

In yet another type of fraud, the president of a Michigan gas station and convenience store was indicted
for making false statements to a lender in order to assume an existing SBA-guarantied loan of about
$640,000. He signed documents in which he stated he had never been arrested or convicted of any
criminal offense other than a minor traffic violation. A joint investigation with the DHS determined that
the businessman had, in fact, pled guilty to conspiracy to transport and sell stolen motor vehicles and had
been sentenced to 4 years Federal probation.


OIG Investigations Identify Wrongful Actions by SBIC Principals

SBA licenses SBICs so that they, in turn, can provide assistance to small businesses, especially during
growth stages. To accomplish this, the Agency supplements SBIC capital with Government-guarantied
securities. Some SBIC executives have abused their positions of trust for personal enrichment.

                                                           For example, during this reporting period, a
…a manager of a New Jersey SBIC technology
                                                           manager of a New Jersey SBIC technology fund
fund was sentenced to 70 months in prison and 5
                                                           was sentenced to 70 months in prison and 5
years supervised release, and ordered to pay over
                                                           years supervised release, and ordered to pay
$1.9 million in restitution to SBA, in connection
                                                           over $1.9 million in restitution to SBA, in
with making false entries in the SBIC’s records.
                                                           connection with making false entries in the



                                                     14
                               Significant OIG Activities

SBIC’s records. He had converted at least $5 million received from SBA for his personal benefit. His
wife had previously pled guilty to interstate transportation of stolen or fraudulently obtained property in
connection with her role in stealing more than $1.9 million from the SBIC. The OIG conducted this
investigation jointly with the FBI.

In another recent case, the former chief executive officer of a Missouri SBIC was served with a complaint
and summons in connection with alleged breaches of fiduciary duty, including the improper conversion of
funds for his personal benefit. The complaint seeks recovery of nearly $394,000 in actual damages plus
interest. The OIG is conducting this investigation jointly with the FBI.


The OIG Continues to Recommend Recovery of Improper Guaranty Purchases

 Reviews of several SBA-guarantied loans revealed that the lenders did not originate, close and/or service
 the loans in accordance with SBA’s policies. These included two “early default” loans, defined as a loan
 default or business failure that occurs prior to, or within 18 months after, final disbursement, and one
 “early problem” loan, defined as occurring when a borrower consistently makes late or partial payments,
                                                       funds monthly payments through the sale of
Reviews of early default and early problem             collateral, or has two or more consecutive scheduled
loans have identified a high rate of lender            payments deferred within 18 months of final
deficiencies in originating, closing, and              disbursement. Reviews of early default and early
servicing loans, putting SBA’s guaranty at risk.       problem loans have identified a high rate of lender
                                                       deficiencies in originating, closing, and servicing
 loans, putting SBA’s guaranty at risk. When such deficiencies are identified, full or partial recovery of
 the SBA guaranty paid to the lender is generally recommended. The three loan reviews completed during
 this reporting period identified lender deficiencies involving disbursement limitations, equity injection,
 and use of loan proceeds. The reviews resulted in recommended recoveries of $133,404. Additional
 reviews of early default and early problem loans are in progress.


Improvements are Needed in the 7(a) Lender Monthly Reporting Process

Eighty percent of SBA loans guarantied annually are originated, serviced, and liquidated by private sector
lenders, with limited SBA oversight. Thus, SBA has established a Lender/Loan Monitoring System
(L/LMS) to manage risk associated with its loan portfolio. The L/LMS system uses data from SBA’s
Loan Accounting System (LAS) to rate lenders and loans. Data within the LAS is updated through the
1502 Reporting Process, a monthly loan status report submitted by the lenders to SBA’s transfer agent,
Colson Services Corporation (Colson) for all Section 7(a) loans in their portfolios. The OIG reviewed the
1502 Reporting Process as part of a review of the L/LMS to determine whether accurate, complete, and
timely data was incorporated into the L/LMS. Based on our analysis of the process and a judgmental
sample of lender reporting results, we found that SBA had not established a control environment to ensure
data reliability. For example, a review
                                                Inaccuracies in the status and outstanding guaranty loan
of 217 loans reported by six lenders in
                                             balances reported by the lenders potentially compromise the
December 2004, showed that the LAS
                                                           Agency’s risk assessment of its loan portfolio.
had the wrong status for 86 (40 percent)
of these loans. In addition, for the same
six lenders, the outstanding guaranty balances in the LAS, applicable to 129 of their 217 loans were



                                                    15
                               Significant OIG Activities

inaccurate. Reports from Colson covering November through January disclosed that Colson corrected
only 10 to 15 percent of the errors that were identified in any given month. Inaccuracies in the status of
loans and outstanding guaranty loan balances reported by the lenders potentially compromise the
Agency’s risk assessment of its loan portfolio.

The OIG recommended: (1) revisions in the existing Standard Operating Procedure to include greater
controls and assign office responsibilities; (2) an assessment of the risks resulting from inaccuracies in the
1502 Reporting Process; (3) appropriate training for SBA and lender personnel involved in the process;
(4) an automated process to reclassify loans not reported monthly as delinquent; (5) modification of the
Colson contract to improve Colson’s performance; and (6) improved monitoring efforts over SBA and
Colson personnel. SBA agreed with those recommendations.

The OIG also recommended that SBA cite the            The OIG…recommended that SBA cite the internal
internal control deficiency as a material                 control deficiency as a material weakness in the
weakness in the annual Federal Managers                 annual Federal Managers Financial Integrity Act
Financial Integrity Act (FMFIA) assurance              (FMFIA) assurance statement and in the Agency’s
statement and in the Agency’s annual                      annual Performance and Accountability Report
Performance and Accountability Report                                                             (PAR).
(PAR). Management disagreed, stating that
they did not believe our sample was adequate
to evaluate internal controls properly and, therefore, they do not believe there was a material weakness
that should be reported under FMFIA and the PAR. However, it does not appear that SBA is undertaking
its own analysis to determine the extent of the problem.


Improvements are Needed in Human Capital Planning for the Office of Financial Assistance

 As part of its ongoing examination of SBA human capital and transformation efforts, the OIG reviewed
 the Office of Financial Assistance’s (OFA) human capital planning activities. We found that OFA does
                                                       not have an up-to-date staffing plan or a
…the OFA does not have an up-to-date staffing
                                                       documented training plan to ensure that its staff
plan or a documented training plan to ensure that
                                                       has, retains, and builds the skills and competencies
its staff has, retains, and builds the skills and
                                                       needed for OFA to achieve its current and future
competencies needed for OFA to achieve its
                                                       goals. We also found that the current Associate
current and future goals.
                                                       Deputy Administrator for Capital Access has not
                                                       taken action to ensure that OFA operates with an
 updated and approved staffing plan. The OIG also observed that OFA does not routinely monitor or
 measure quality assurance in the operations of its loan processing and service centers. OFA program
 officials indicated agreement with the OIG’s observations and concerns regarding human capital planning
 in OFA.




                                                     16
                              Significant OIG Activities

Small Business Development, Contracting, Education, and Training
Through its Government contracting programs, SBA works to create an environment for maximum
participation by small, disadvantaged, and women-owned businesses in Federal Government contract
awards. These programs include, among others, the Historically Underutilized Business Zone
(HUBZone) Empowerment Contracting Program, and the Small Disadvantaged Business (SDB)
Certification Program. SBA also negotiates with Federal agencies to establish procurement goals for
contracting with small, small disadvantaged, women-owned, service-disabled-veteran-owned, and
HUBZone small businesses. The current Government-wide goal is for 23 percent of the total value of all
prime contract awards for each fiscal year to go to small businesses.

SBA also manages the Section 8(a) Business Development (8(a) BD) program. This program was
established to provide business development assistance to small businesses owned by socially and
economically disadvantaged individuals, and help them access the multi-billion dollar Federal
procurement market.

In addition, SBA provides assistance to existing and prospective small businesses through a variety of
counseling and training services offered by Agency partner organizations. Among these are Small
Business Development Centers (SBDCs), the Service Corps of Retired Executives (SCORE), and
Women’s Business Centers (WBCs). Most of these are grant programs. All demand of SBA effective
and efficient management, outreach, and service delivery. Determining whether business development
and Government contracting programs meet these demands requires reliable internal and external data for
effective monitoring and oversight.


Federal Procurement Remains a Target for Fraud

A serious government contracting issue involves companies which misrepresent themselves as small
businesses to gain an unfair advantage in the Federal marketplace. Recently, an Arizona firm that
provides technology products and services to the
Government agreed to pay $1 million to settle                    Recently, an Arizona firm that provides
allegations that a corporation it had purchased in               technology products and services to the
2002 had falsely certified itself as a small business      Government agreed to pay $1 million to settle
on its application for the General Services            allegations that a corporation it had purchased in
Administration’s (GSA) Multiple Award Schedule        2002 had falsely certified itself as a small business
(MAS) listing products and vendors. The OIG                          on its application for the GSA MAS.
received a complaint that the corporation had
unfairly received a preference in the award of task orders under the MAS. A two-year investigation
conducted jointly with the GSA OIG and the Department of Justice concluded that the purchased
corporation had indeed misrepresented its size status on its 1996 application, and that the firm had
unfairly benefited from the small business designation. The Arizona firm withdrew the small business
certification in 2005.




                                                   17
                              Significant OIG Activities

A Lack of Monitoring Allows 8(a) Companies to Circumvent SBA Business Development
Regulations

SBA delegated its 8(a) BD contract execution authority to 26 Federal procuring agencies starting in 1998.
At that time, SBA ceased to directly monitor compliance by 8(a) firms program regulations on awarded
contracts, delegating that responsibility to the
procuring agencies.        However, the Agency                Because there is no evidence of compliance
apparently has not conducted any surveillance               monitoring of 8(a) contracts by either SBA or
reviews since the delegation to ensure that the          the procuring agencies, companies could violate
procuring agencies are effectively monitoring the           8(a) regulations without detection by Federal
contracts. An OIG review of 23 of the 26 procuring                                               officials.
agencies found that none of them has procedures or
other guidance in place to detect if companies are not complying with the 8(a) regulations. Because there
is no evidence of compliance monitoring of 8(a) contracts by either SBA or the procuring agencies,
companies could violate 8(a) regulations without detection by Federal officials.

In one case, neither SBA nor the procuring agency was aware that an 8(a) company apparently
subcontracted out 100 percent of its work on 13 8(a) contracts worth approximately $2 million. The firm
appears to have been unduly dependent on subcontractors. It also appears to have falsified payroll
records, and not to have met the requirements to perform out-of-state contracts. SBA has agreed to: (1)
revise the partnership agreements it has with procuring agencies to require them to take certain actions;
and (2) ensure that surveillance reviews are conducted on a regular basis.


Ineligible 8(a) BD Company Receives $9.3 Million Contract

A company and its owner(s) must meet numerous eligibility requirements in order to participate in the
                                                8(a) BD program. Firms value 8(a) status because it
Firms value 8(a) status because it confers      confers certain advantages in competing for Government
certain advantages in competing for             contracts. Companies accepted to the 8(a) BD program
Government contracts.                           can receive sole source awards and other awards
                                                available only to 8(a) participants. In some cases,
business owners are willing to commit fraud to obtain admission to the 8(a) program.

The OIG found that an 8(a) company with two owners – one disadvantaged, one not – that had received a
$9.3 million 8(a) contract had provided false and misleading information to get into, and remain in, the
program. The company’s disadvantaged owner violated 8(a) BD eligibility requirements concerning
payment of Federal financial obligations, company
control, and good character. He failed to make             During the application process, the company
required IRS payments on 9 years of delinquent           falsely led SBA to believe it had complied with
taxes, totaling over $270,000.           The non-      all requirements, thus violating the obligation to
disadvantaged owner received the higher                                            be of good character.
compensation of the two, and as such, should be
considered to be in control of the company, which is also a violation of 8(a) requirements. During the
application process, the company falsely led SBA to believe it had complied with all requirements, thus
violating the obligation to be of good character. Moreover, after being admitted to the program, the
company apparently did not inform SBA that its disadvantaged owner was not the highest compensated



                                                   18
                               Significant OIG Activities

employee, although it is required to inform SBA of any changes affecting its eligibility. SBA has agreed
with the OIG’s recommendation to initiate proceedings to terminate the company from the program.


Improvements are Needed in the Central Contractor Registration Database to Prevent Large
Businesses From Being Classified as Small Ones

In the OIG’s “FY 2006 Report on the Most Serious Management Challenges Facing the Small Business
Administration,” Management Challenge 1 addresses flaws in the procurement process that allow
contracting agencies to count contracts awarded to large businesses towards their small business goals.

The Central Contractor Registration (CCR) website was developed by the Department of Defense to
provide a way for contractors to receive payments when contracting with the Federal Government.
Subsequently, the database maintained on the CCR website also became a marketing tool for contractors.
During this reporting period, we determined
                                                       …a flaw in the CCR system allows contradictory
that a flaw in the CCR system allows
                                               information on a contractor’s size to be included, which
contradictory information on a contractor’s
                                                 can lead contracting officials and others to incorrectly
size to be included, which can lead
                                                       identify contractors as small businesses and thus
contracting officials and others to
                                                    designate contracts awarded to large businesses as
incorrectly identify contractors as small
                                                                                small business contracts.
businesses and thus designate contracts
awarded to large businesses as small
business contracts. The OIG believes that the CCR database needs to be modified to include an edit
check and additional instructions. SBA’s Office of Government Contracting agreed with the OIG’s
recommendations for corrective action.


Businesses Scheme to Maintain Section 8(a) Status

The former president and vice president of a Virginia hazardous materials abatement and waste removal
company conspired to make misrepresentations to SBA in order to maintain the firm’s 8(a) eligibility.
                                                           They also violated Environmental Protection
The former president and vice president of a Virginia      Agency (EPA) regulations by conspiring to
hazardous materials abatement and waste removal            falsify hazardous environmental training
company conspired to make misrepresentations to            certificates on contracts. During this reporting
SBA in order to maintain the firm’s 8(a) eligibility.      period, the former president was sentenced to
                                                           5 months in prison, 5 months home detention,
3 years supervised release, a $1 million fine, and a special fee. Moreover, the vice president, who was
also the president of a subcontractor firm that served the contractor, previously had pled guilty to
conspiracy to defraud SBA and the EPA. The subcontractor firm and its president were later suspended
from Government contracting by the U.S. Army Procurement Fraud Branch. Based on a Department of
Justice request to join an ongoing investigation, the OIG worked jointly on this case with the FBI, the
Defense Criminal Investigative Service, the EPA Criminal Investigation Division, the U.S. Army
Criminal Investigation Division, the National Aeronautics and Space Administration (NASA) OIG, the
Defense Contract Audit Agency, and the Virginia Department of Professional and Occupational
Regulation. Additional defendants are awaiting sentencing.




                                                    19
                               Significant OIG Activities

SBIR Fraud Affects Multiple Agencies

The Small Business Innovation Research (SBIR) program helps a small business develop its
technological potential by funding its startup and
                                                           Fraud related to SBIR contracts can involve
development stages and by encouraging the
                                                                        more than one Federal agency.
commercialization of its technology, product, or service.
Fraud related to SBIR contracts can involve more than one Federal agency.

In one case, the owner of a technology company allegedly billed multiple Federal agencies for the same
                                                               work, billed for work that was not
…the owner of a technology company allegedly billed
                                                               performed, and falsified time sheets and
multiple Federal agencies for the same work, billed for
                                                               research logs to ensure optimum funding
work that was not performed, and falsified time sheets
                                                               under each contract. Consequently, the
and research logs to ensure optimum funding under each
                                                               U.S. Government overpaid the company
contract.
                                                               approximately $2 million.      The OIG
                                                               investigators served the company and its
owner with a civil complaint under the False Claims Act. The complaint alleged that the owner made
false statements and engaged in a pattern of fraudulent conduct to improperly obtain funds from SBIR
contracts awarded to the company by the U.S. Army, U.S. Air Force, and NASA. The OIG is conducting
this investigation jointly with the NASA OIG, the U.S. Postal Inspection Service, the U.S. Army Criminal
Investigations Division, and the Defense Criminal Investigative Service.


OIG Reports on SBA’s Cosponsorships and Fee-Based Administration-Sponsored Events

Section 4(h) of the Small Business Act requires the OIG to report to Congress on a semiannual basis
regarding the Agency’s use of its authority in connection with
cosponsorships and fee-based Administration-sponsored events.          Between October 1, 2005, and
SBA’s Office of Strategic Alliance (OSA) provided information to      March 31, 2006, there were 33
the OIG related to cosponsorships, including the names, dates and       cosponsorships, as shown in
locations of the cosponsorships, and names of cosponsors.                             Appendix IX.
Between October 1, 2005, and March 31, 2006, there were 33
cosponsorships, as shown in Appendix IX. SBA reported that it did not conduct any fee-based
Administration-sponsored events during this period.


Legislation Requires Approval of SBDC Surveys

Section 21(a)(7) of the Small Business Act imposes restrictions on the disclosure of information
regarding individuals or small businesses that have received assistance from an SBDC, and further
restricts the Agency’s use of such information. The provision also requires the Agency to issue
regulations regarding disclosures of such information for use in conducting financial audits or SBDC
client surveys. In addition, paragraph 21(a)(7)(C)(iii) states that, until the issuance of such regulations,
any client survey and the use of such information shall be approved by the IG who shall include such
approval in the OIG’s semiannual report.




                                                    20
                            Significant OIG Activities

The Agency reported that there were   The Agency reported that there were no SBDC surveys requiring
no SBDC surveys requiring OIG         OIG approval during this reporting period. Although the
approval during this reporting        statutory provision was enacted in December 2004, the Agency
period.                               has not yet issued the required regulations regarding disclosures
                                      of client information. Agency officials advise that they continue
                                      to work on the regulations.




                                                21
                              Significant OIG Activities

                                    Agency Management
The Chief Financial Officers Act of 1990 requires each Federal agency to have its financial statements
audited annually. A key initiative of the Office of Management and Budget (OMB) is to have agencies
improve their financial management activities, including providing financial statements and financial
performance information in a more timely manner. For several years, SBA’s external auditors have been
critical of the Agency’s reporting process and its ability to provide accurate, complete, and reliable
financial data.

SBA depends on a complex information technology (IT) environment, which includes a number of
mission-critical systems running on a mix of legacy mainframe, client-server, and minicomputers. The
Agency has had difficulty producing reliable and timely financial and management information to support
its operations, primarily because of reliance on outdated IT systems that are not integrated. SBA recently
implemented a new Disaster Credit Management System to modernize and improve its disaster loan-
making activities, and a Lender and Loan Monitoring System to monitor its business loan portfolio. The
Agency is in the process of developing the requirements for a Loan Management and Accounting System
(LMAS) that will eventually replace SBA’s Loan Accounting System, which is obsolete.


SBA Makes Significant Progress in Overcoming Financial Management Challenge

Various laws and regulations place significant responsibilities on Federal financial managers to manage
public resources effectively and efficiently. In recent years, the OIG, GAO, and SBA’s external auditor
all noted significant internal control weaknesses that resulted in the Agency being unable to produce
reliable, timely, and accurate financial information, including its annual financial statements. Because of
these weaknesses, SBA’s independent auditors were unable to render opinions on SBA’s financial
statements from FY 2000 through FY 2003.

Recognizing the importance of sound financial management, SBA’s Administrator has made improving
financial management one of the Agency’s top
priorities. SBA has worked diligently to identify and          SBA has worked diligently to identify and
address the underlying causes of its financial             address the underlying causes of its financial
management issues and the Agency has made                  management    issues and the Agency has made
significant progress towards improvement. Improved            significant progress towards improvement.
models for estimating the Agency’s subsidy costs and
improved controls over financial statement preparation contributed significantly to permitting the external
auditor to render an unqualified opinion on SBA’s FY 2005 Financial Statements.

Despite the improvements in the quality, accuracy, and reliability of SBA’s FY 2005 financial reports and
                                                      supporting documentation, SBA’s external auditor
Despite the improvements in the quality, accuracy, concluded that a material weakness continues to
and reliability of SBA’s FY 2005 financial reports    exist in SBA’s financial management and
and supporting documentation, SBA’s external          reporting controls. The OIG recently updated the
auditor concluded that a material weakness            financial Management Challenge to reflect the
continues to exist in SBA’s financial management      progress made and to emphasize the additional
and reporting controls.                               steps needed for SBA to resolve this Challenge.
                                                      To be successful, SBA will need to further


                                                    22
                               Significant OIG Activities

improve financial reporting controls, enhance quality assurance procedures over financial reporting,
submit quarterly and annual financial statements that are substantially free of errors, maintain the external
auditor’s unqualified opinion on the Agency’s financial statements, have no reportable conditions related
to financial management and reporting, and implement the requirements of OMB Circular A-123 (A-
123).

A-123 provides updated internal control standards with an emphasis on integrating control assessments
with other control-related activities. A-123 provides an excellent framework for SBA to evaluate its
existing control environment and to determine where control deficiencies exist that prevent SBA from
achieving the objectives of its financial management and reporting controls. The actions the OIG
identifies as necessary for SBA to overcome its financial Management Challenge are consistent with the
actions necessary for a successful A-123 implementation. Therefore, the OIG is providing SBA with
internal control assessment tools, external auditor documentation of SBA’s key accounting and reporting
cycles, and informal reviews of SBA’s OMB A-123 implementation plans and progress to date.

The OIG is monitoring SBA’s continued progress by: increasing the resources devoted to the Agency’s
annual financial statement audit; working
closely with SBA to ensure the Agency                 The OIG is monitoring SBA’s continued progress
incorporates needed corrective actions identified   by: increasing the resources devoted to the Agency’s
by the OIG and external auditors into its                             annual financial statement audit…
financial reporting plans; requiring review by
the OIG of all final actions on recommendations related to SBA’s financial Management Challenge; and
following SBA’s activities to implement the requirements of A-123. For FY 2006, a new external
auditor, KPMG, will perform the financial statement audit and related work.


SBA Shows Improvement in Accrediting its Major Information Systems but Needs Improvement in
Addressing Identified System Vulnerabilities

The confidentiality, integrity, and availability of SBA’s information systems are vital to the continued
successful operation of the Agency. SBA’s effort to improve its computer security program during the
past year has shown mixed results. SBA achieved a major milestone in certifying and accrediting 95
percent of its major systems within the past year. However, recent OIG and external auditor reviews
showed the need for continued focus and improvement in Information System Controls. Based on these
audit results, the OIG has updated the information security Management Challenge to reflect the
additional specific actions needed for SBA to overcome this Management Challenge.

 Our external auditor’s FY 2005 review of general and application controls was issued during this
 reporting period. This audit followed guidance provided in the GAO Federal Information System
                                                             Controls Audit Manual (FISCAM) and
The external auditor made six new recommendations, and       concluded, as it did for FY 2004, that SBA
specifically identified two of 26 unimplemented              needs to improve: (1) entity-wide security
recommendations from previous audit reports that             program controls; (2) access controls;
addressed significant risks to the integrity of the Agency’s (3) application software development and
information security program.                                program change controls; (4) system
                                                             software controls; (5) segregation of duty
                                                             controls; and (6) service continuity



                                                     23
                              Significant OIG Activities

controls. The external auditor made six new recommendations, and specifically identified two of 26
unimplemented recommendations from previous audit reports that addressed significant risks to the
integrity of the Agency’s information security program.

The OIG review of SBA’s FY 2005 Information Security Program, required by the Federal Information
Security Management Act, revealed mixed results. SBA continued to have 19 of its 20 major systems (95
percent) certified and accredited. However,
SBA has not been able to quickly or sufficiently     …SBA has not been able to quickly or sufficiently
address     211    system   risk    assessment       address 211 system risk assessment vulnerabilities
vulnerabilities and unresolved OIG audit                           and unresolved OIG audit findings.
findings. A number of these unimplemented
audit recommendations and risk assessment weaknesses are significant to SBA’s information technology
environment. Therefore, improvements continue to be needed in general and application controls in
SBA’s IT general support and major application systems.


SBA Improperly Accepted One Cash Gift for Travel-Related Purposes

Section 4(g)(2) of the Small Business Act as amended by SBA’s most recent reauthorization provides that
any gift, devise, or bequest of cash accepted by the Administrator under Section 4(g) shall be held in a
separate account and shall be subject to semiannual audits by the Inspector General who shall report any
findings to Congress. During this reporting period, the OIG reviewed one cash gift received by the
Agency in June 2005 and found that the Office of General Counsel (OGC) had never been requested to
perform the required conflict of interest determination for the donor. The OIG brought this matter to the
attention of OGC, which, in turn, performed a conflict of interest determination and found that the cash
gift was improperly received by the Agency to pay for travel. Agency officials plan to return the money
to the donor. The Agency reported that no cash gifts were received during the period October 1, 2005
through March 31, 2006.

Also during this reporting period, the Agency’s final regulations for implementing the changes to SBA’s
gift authority were published in the Federal Register. The OIG reviewed and provided comments noting
certain deficiencies in the regulations, and the Agency made appropriate adjustments. In addition, final
action was reached on four of the nine recommendations from our audit report, “Review of SBA
Procedures for Cash Gifts,” issued September 30, 2005.


The Number and Percentage of Overdue Management Decisions Has Decreased While the Number
and Percentage of Overdue Final Implemented Actions Has Increased

When the OIG presents a recommendation, the management decision can take several forms. Program
officials may agree to the recommendation, disagree with the recommendation, or seek to negotiate a
compromise agreement with the OIG. The IG Act requires that Federal agencies make management
decisions on all findings and recommendations within a maximum of 6 months of report issuance. As of
March 31, 2006, 25 management decisions on recommendations in OIG reports were overdue—
approximately 27 percent of all pending management decisions. This represents a decrease since
September 30, 2005 in the number and percentage of overdue management decisions. The Offices of




                                                   24
                             Significant OIG Activities

Capital Access, Government Contracting/Business Development, Management and Administration, and
Strategic Alliance were responsible for over half of the overdue management decisions.

A management decision includes a target date for implementing the agreed-to management decision. The
number and percentage of recommendations with
overdue     final  implemented      actions   has     The number and percentage of recommendations
substantially increased—by 20 percent—since                with overdue final implemented actions has
September 30, 2005. As of the end of this                substantially increased—by 20 percent—since
reporting period, 61 percent of all pending final            September 30, 2005. As of the end of this
actions (134 actions) were overdue. The OCIO           reporting period, 61 percent of all pending final
and Management and Administration were                                          actions…were overdue.
responsible for almost half of the overdue final
actions.




                                                  25
                               Significant OIG Activities

                            Other Significant OIG Activities
Proactive Character Screening Reduces Potential Program Fraud

To ensure that participants in programs involving business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guaranties, SBICs, and certified
development companies meet SBA character standards,               During this reporting period, the OIG
the OIG’s Office of Security Operations conducts name              processed 1,719 external name check
checks and, when necessary, fingerprint checks. During                      requests for these programs.
this reporting period, the OIG processed 1,719 external
name check requests for these programs.

 The OIG also refers applicants who appear ineligible because of character issues to program officials for
                                         adjudication based on data from an on-line connection with the
Over $266.2 million in loans has been    FBI. During this period, OIG referrals resulted in SBA
declined during the last 10 years due    business loan program managers declining 47 applications
to character eligibility issues, thus    totaling nearly $20.1 million, and disaster loan program
making credit available to more          officials declining 14 applications totaling almost $1.4 million.
worthy applicants.                       Over $266.2 million in loans has been declined during the last
                                         10 years due to character eligibility issues, thus making credit
 available to more worthy applicants.

Moreover, OIG efforts during this period resulted in the Section 8(a) BD program declining seven
applications for admission, and the Surety Bond Guaranty Program declining one application. The OIG
also initiated 145 background investigations and issued 19 security clearances for Agency employees and
contractor personnel needing clearances, adjudicated 88 background investigative reports, and
coordinated with SBA’s Office of Disaster Assistance to adjudicate 323 derogatory background
investigative reports. Finally, the OIG processed 2,485 internal name check requests for Agency
activities such as success stories, Small Business Person of the Year nominees, and disaster assistance
new hires.


The OIG Recommends Debarments

The OIG believes that it is in the public interest to debar parties that have engaged in fraudulent conduct
or have otherwise shown a lack of business integrity.
Debarred parties are precluded from conducting business          The OIG has adopted a proactive program
or contracting with the Federal Government for a                            to identify current SBA program
specified period of time, generally 3 years. The OIG has            participants for whom debarment would
adopted a proactive program to identify current SBA                     serve the public interest and to make
program participants for whom debarment would serve                    debarment   recommendations to SBA.
the public interest and to make debarment
recommendations to SBA.

For example, during the reporting period, the OIG recommended that SBA debar two individuals who
made false statements to obtain an SBA-guarantied loan to purchase a business. One of the individuals
claimed that he would use personal assets to make an equity injection to pay part of the purchase price of


                                                    26
                               Significant OIG Activities

the business. An OIG investigation determined that a majority of the equity injection was actually loaned
to the individual by his brother. In addition, the brother had previously received an SBA loan. If the
affiliation of the two individuals had been disclosed, the two loans would have exceeded SBA’s statutory
limit for total loans to a borrower. The two subjects pled guilty to conversion of government property and
were sentenced to 3 years probation and fines. The Agency agreed with the OIG recommendation to
debar the individuals.

 Also, during the reporting period, the OIG recommended that SBA debar an individual who defrauded the
 government to obtain a disaster loan for damage he claimed occurred as a result of the 9/11 terrorist
                                                attacks. The OIG’s recommendation to the Agency related
…the OIG recommended that SBA debar             that the individual claimed that his business was located
an individual who defrauded the                 near the World Trade Center and that, as a result of the
government to obtain a disaster loan for        attacks, his law firm’s revenues declined. The OIG
damage he claimed occurred as a result of       investigation determined that the individual’s claims were
the 9/11 terrorist attacks.                     false because his law firm never had an office located near
                                                the World Trade Center. The investigation resulted in the
 subject pleading guilty to wire fraud and money laundering in violation of 18 U.S.C. §§ 1343 and 1957.
 The Agency has not finished its evaluation to decide whether to debar the individual.

Debarment statistics for the reporting period can be found in the Statistical Highlights section.


OIG Reviews Legislation, Regulations, and Standard Operating Procedures to Identify Potential
Problem Areas

The OIG plays an important role in reviewing SBA’s proposed regulations and initiatives. The OIG
reviews proposals to, among other things, identify
program inefficiencies and areas susceptible to        The OIG’s substantive comments frequently
fraud, waste, and abuse. The OIG’s substantive      lead to marked improvement in legislation and
comments frequently lead to marked improvement in   regulations proposed by SBA or affecting SBA
legislation and regulations proposed by SBA or        programs,  new and revised Agency operating
affecting SBA programs, new and revised Agency      procedures, Agency reorganizations, and other
operating procedures, Agency reorganizations, and  matters requiring the Administrator’s signature.
other matters requiring the Administrator’s
signature.

From October 1, 2005, through March 31, 2006, the OIG identified and recommended solutions to reduce
potential management problems and inefficiencies in several areas of importance to the Agency. These
included: Agency initiatives to expedite assistance to the victims of the Gulf hurricanes; regulations and
office reorganizations regarding SBA’s oversight of lenders participating in business loan programs and
the Agency’s planned centralization of certain SBA loan functions; regulations establishing a woman-
owned small business contracting program; and various initiatives governing admission to, and
graduation from, the 8(a) BD program. During this period, the OIG reviewed 20 proposed legislative and
regulatory changes, and 58 internal SBA operating procedures and other initiatives, covering a wide
variety of Agency issues.




                                                     27
                              Significant OIG Activities

 Regarding one such initiative, the OIG identified problems with a proposed expansion of the
                                         CommunityExpress Program, which is a pilot program of the
…the OIG identified problems with        7(a) loan guaranty program. Similar to the SBAExpress
a proposed expansion of the              Program, lenders in the CommunityExpress Program are
CommunityExpress Program, which permitted to use their own forms and lending procedures rather
is a pilot program of the 7(a) loan      than SBA processes. Unlike the SBAExpress Program, in which
guaranty program.                        lenders receive a 50 percent guaranty, CommunityExpress
                                         lenders receive a 75 to 80 percent guaranty, depending upon the
 size of the loan. In exchange for the higher guaranty, lenders are required to direct loans to borrowers
 located in pre-designated geographic areas generally comprising low and moderate income areas, and to
 women, minorities and/or veterans, and to provide technical assistance to these borrowers.

The Agency proposed to extend the term of the CommunityExpress Program, and to expand the universe
of borrowers that were eligible to participate in the program. The OIG disagreed with this proposal
because the CommunityExpress Program was
                                                                  … the CommunityExpress Program was
established in March 1999 and the Agency has never
                                                                established in March 1999 and the Agency
issued any regulations, Standard Operating Procedures
                                                               has never issued any regulations, SOPs, or
(SOPs), or any other guidance to govern this program.
                                                               any other guidance to govern this program.
(A proposed program guide was circulated within the
Agency for clearance several years ago, but was never
officially cleared by all required clearing offices. Nevertheless, the Agency has posted this guide on its
banking website as official program guidance.) The OIG believes that prior to extending the term of this
pilot program, and prior to expanding the scope of the program, the Agency needs to develop regulations,
SOP provisions or a program guide that is cleared as an appendix to an SOP.




                                                   28
                                                     Statistical Highlights

                                      FY 2006 6-Month Productivity Statistics
                                      October 1, 2005, through March 31, 2006

Summary of Office-Wide Dollar Accomplishments                                                                                                          Totals

A. Potential Investigative Recoveries and Fines......................................................................... $19,671,209
B. Loans/Contracts Not Made as Result of Investigations .................................................................. $6,200
C. Loans Not Made as a Result of Name Checks ....................................................................... $21,463,372
D. Disallowed Costs Agreed to by Management ............................................................................. $456,202
E. Recommendations that Funds Be Put to Better
       Use Agreed to by Management.............................................................................................. $25,000

Total ........................................................................................................................................... $41,621,983

Efficiency and Effectiveness Activities Related to Audits and Other Reports

A. Reports Issued ........................................................................................................................................ 20
B. Recommendations Issued ....................................................................................................................... 60
C. Dollar Value of Costs Questioned............................................................................................... $481,366
D. Dollar Value of Recommendations that Funds
        Be Put to Better Use....................................................................................................................... $0
E. Collections as a Result of Questioned Costs ............................................................................... $669,955


Audit and Report Follow-up Activities

A. Recommendations Closed...................................................................................................................... 70
B. Disallowed Costs Agreed to by Management ............................................................................. $456,202
C. Dollar Value of Recommendations that Funds Be Put to Better Use
        Agreed to by Management.................................................................................................... $25,000
D. Unresolved Recommendations............................................................................................................... 99

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation Reviewed............................................................................................................................... 7
B. Regulations Reviewed............................................................................................................................ 13
C. Standard Operating Procedures and Other Issuances* Reviewed .......................................................... 58

Total ........................................................................................................................................................... 78

*This category includes policy notices, procedural notices, Administrator’s action memoranda, and other Agency
initiatives, which frequently involve the implementation of new programs and policies.




                                                                               29
                                                     Statistical Highlights

                                      FY 2006 6-Month Productivity Statistics
                                      October 1, 2005, through March 31, 2006
Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases............................................................................................................... 23*
B.   Convictions from OIG Cases .............................................................................................................. 13*
C.   Cases Opened ........................................................................................................................................ 28
D.   Cases Closed ......................................................................................................................................... 29

Investigations Recoveries and Management Avoidances

A. Potential Recoveries and Fines as a Result of
       OIG Investigations......................................................................................................... $19,671,209
B. Loans/Contracts Not Approved as a Result of OIG Investigations................................................ $6,200
C. Loans Not Approved as a Result of the Name
       Check Program .............................................................................................................. $21,463,372

Total ........................................................................................................................................... $41,140,781

SBA Personnel Actions Taken as a Result of Investigations

A.   Dismissals ............................................................................................................................................... 0
B.   Resignations/Retirements........................................................................................................................ 0
C.   Suspensions ............................................................................................................................................. 0
D.   Reprimands ............................................................................................................................................. 0
E.   Other ........................................................................................................................................................ 0


Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency ............................................................................................. 8
B.   Debarments Pending at the Agency ........................................................................................................ 9
C.   Proposed Debarments Issued by the Agency .......................................................................................... 6
D.   Final Debarments Issued by the Agency................................................................................................. 7

OIG Hotline Operation Activities

A.   Total Fraud Line Calls/Letters ............................................................................................................ 248
B.   Total Calls/Letters Referred to Investigations Division ........................................................................ 28
C.   Total Calls/Letters Referred to SBA or Other Federal Investigative Agencies .................................... 27
D.   Total Calls/Letters Referred to Other Entities....................................................................................... 31
E.   Total Calls/Letters Needing No Action ............................................................................................... 162

*Includes four indictments/convictions that occurred in the last semiannual reporting period but were not reported.




                                                                                30
                                        Appendix

                                         Appendix I
                                     OIG Reports Issued
                           October 1, 2005, through March 31, 2006

                   Title                      Report     Issue       Questioned    Funds for
                                              Number     Date          Costs       Better Use
Capital Access
1502 Reporting Process                         6-07      12/9/05
Audit of SBA’s Administration of the           6-09     12/22/05
Supplemental Terrorist Activity Relief
(STAR) Loan Program
Audit of SBA-Guarantied Loan to Ford’s         6-14      3/2/06          $26,413
Plumbing
Audit of SBA-Guarantied Loan to Furco, Inc.    6-16     3/20/06          $18,992
Audit of SBA-Guarantied Loan to ScapeArt,      6-17     3/20/06          $88,269
Inc.
Program Subtotal                                   5                   $133,674
Disaster Assistance
Disaster Loan Application Declines Within      6-11      2/2/06
DCMS
FEMA Online Registrations Increase DCMS        6-12     2/17/06
Applications
Interface Error Correction Between NEMIS       6-20     3/31/06
and DCMS
Program Subtotal                                   3                         $0
Agency Management
Advisory Memorandum Report —                   6-01     10/7/05
Independent Evaluation of SBA’s Information
Security Program
FY 2006 Management Challenges                  6-02     10/14/05
Single Audit of Greenpoint Manufacturing       6-03     10/17/05       $347,692
and Design Center
Audit of SBA’s FY 2005 Financial               6-04     11/14/05
Statements
Government-Wide Financial Report System        6-05     11/18/05
for FY 2004
Agreed-Upon Procedures: SBA’s                  6-06     12/2/05
Intragovernmental Activity and Balances
Audit of SBA’s FY 2005 Information System      6-08     12/21/05
Controls
Audit of SBA’s FY 2005 Financial               6-10     1/18/06
Statements — Management Letter
Human Capital Planning in the Office of        6-13      3/2/06
Financial Assistance
Program Subtotal                                   9                   $347,692



                                              31
                                          Appendix

                                        Appendix I (cont.)
                                       OIG Reports Issued
                             October 1, 2005, through March 31, 2006

                    Title                      Report      Issue       Questioned    Funds for
                                               Number      Date          Costs       Better Use
Government Contracting and
Business Development
Monitoring Compliance with 8(a) BD              6-15      3/16/06
Regulations During 8(a) BD Contract
Performance
The Central Contractor Registration Needs to    6-18      3/21/06
Be Modified
Review of a Company’s 8(a) Business             6-19      3/30/06
Development Program Eligibility
Program Subtotal                                  3                             $0
TOTALS (all reports)                             20                      $ 481,366




                                               32
                                             Appendix

                                            Appendix II
                                  OIG Reports with Questioned Costs

                                           Report     Recommend-          Questioned        Unsupported
                                             s          ations*            Costs**            Costs**
 A.    No management decision made
       by September 30, 2005                  7               9           $5,609,892.10     $3,086,077.13
 B.    Issued during this reporting
       period                                 4               4              $481,366.00                 $0
       Universe from which
       management decisions could be
       made in this reporting period –
       Subtotals                             11               13          $6,091,258.10     $3,086,077.13
 C.    Management decision(s) made
       during this reporting period           3               3           $1,930,385.73                  $0
       (i) Disallowed costs                   0               0                      $0                  $0
       (ii) Costs not disallowed              0               0                      $0                  $0
 D.    No management decision
       made by March 31, 2006                 8               10          $3,914,412.37     $3,086,077.13

* Reports may have more than one recommendation.
**Questioned costs are those which are found to be improper, whereas unsupported costs may be proper but lack
documentation.


                                        Appendix III
                OIG Reports with Recommendations that Funds Be Put to Better Use

                                                      Reports      Recommend-           Recommended
                                                                     ations*           Funds For Better
                                                                                             Use
 A.    No management decision made by
       September 30, 2005                                 2              2                    $318,823.00
 B.    Issued during this reporting period                0              0                                0
       Universe from which management
       decisions could be made in this reporting
       period – Subtotals                                 2              2                    $318,823.00
 C.    Management decision(s) made during this
       reporting period                                   1              1                      $25,000.00
       (i)     Recommendations agreed to by
               SBA management                             1              1                      $25,000.00
       (ii)    Recommendations not agreed to
               by SBA management                          0              0                               $0
 D.    No management decision made by
       March 31, 2006                                     1              1                    $293,823.00

*Reports may have more than one recommendation.


                                                     33
                                                Appendix

                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                          Reports          Recommendations
 A.     No management decision made by September 30, 2005                     25                    86
 B.     Issued during this reporting period                                   12                    56
        Universe from which management decisions could be
        made in this reporting period – Subtotals                             37                   142
 C.     Management decision(s) made (for at least one
        recommendation in the report) during this reporting
        period                                                                18                    66
 D.     No management decision made (for at least one
        recommendation in the report) by
        March 31, 2006 *                                                      24                    77

*Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may
have recommendations that fall under both C. & D.




                                                        34
                                            Appendix

                                          Appendix V
                           OIG Reports From Prior Semiannual Periods
                              with Overdue Management Decisions
                                     as of March 31, 2006

                 Title                     Report     Date                        Status
                                           Number    Issued
Impact of Loan Splitting on Borrowers        2-31    9/30/02       Agency response does not fully address
and SBA                                                            the recommendation.
Audit of SBA's Information Systems           4-19        4/29/04   Agency has not responded to two
Controls FY 2003                                                   recommendations made in the report.
Audit of San Francisco District Office       4-27        6/29/04   Management has not responded to one
Administrative Activities Related to the                           recommendation made in the report.
Silicon Valley Small Business
Development Center
Audit of an SBA-Guarantied Loan to           4-40        9/13/04   Agency response does not fully address
Elatec Technology Corporation and HK                               the recommendation.
Equipment, Inc.
Audit of Selected SBA Computer General       4-41        9/10/04   Agency has not responded to one
Support Systems                                                    recommendation made in the report.
Audit of SBA's E-mail System                 4-42        9/10/04   Agency response does not fully address
                                                                   the three recommendations.
Audit of Early Defaulted Loan to Big Z       4-43        9/17/04   Management has not responded to one
Travel Center                                                      recommendation in the report.
Audit Report – Summary Audit of SBA-         4-44        9/24/04   Management has not responded to two
Sponsored and Cosponsored Events                                   recommendations.
Conducted by District Offices
Review of Indirect Cost Rate of the          5-03    10/25/04 Management has not responded to one
Walsh Group, P.A.                                             recommendation made in the report.
Single Audit of the Mountain Made            5-08     1/6/05 Management has not responded to three
Foundation                                                    recommendations made in the report.
Review of a Cooperative Agreement to         5-11    2/11/05 Agency has not responded to one
HP Small Business Foundation                                  recommendation made in the report.
Audit of SBA's Information Systems           5-12    2/24/05 One recommendation is in management
Controls FY 2004                                              resolution.
SBA Small Business Procurement               5-14    2/24/05 Agency has not responded to five
Awards are Not Always Going to Small                          recommendations made in the report.
Businesses
Review of the Mentor-Protégé Program         5-18        4/18/05   Agency has not responded to four
                                                                   recommendations made in the report.
Audit of the Contract Bundling Process       5-20        5/20/05   Agency has not responded to five
                                                                   recommendations made in the report.
Audit of the SBIC Liquidation Process        5-22        7/28/05   Nine recommendations made in the
                                                                   report are awaiting management
                                                                   response and pending results of a
                                                                   contractor’s report.



                                                    35
                                        Appendix

                                     Appendix V (cont.)
                          OIG Reports From Prior Semiannual Periods
                             with Overdue Management Decisions
                                    as of March 31, 2006

                 Title                  Report      Date                        Status
                                        Number     Issued
Criteria for Overcoming the Presumption   5-24     9/28/05       Management has not responded to one
of Social Disadvantage is Needed                                 recommendation in the report.
Audit of SBA’s Informs Electronics        5-25         9/22/05   Agency response does not fully address
System                                                           the recommendation.
Management Advisory Memorandum:           5-27         9/28/05   Agency response does not fully address
BLX PLP Processing Restrictions for                              the recommendation.
Paying off Existing SBA Debt.
Review of SBA Procedures for Cash         5-28         9/30/05   Agency has not responded to four
Gifts                                                            recommendations made in the report.
Defaulted 9/11 Disaster Loan to CLB     CP 5-02        2/14/05   Agency response does not fully address
Publishers Inc.                                                  the recommendation.




                                                  36
                                               Appendix

                                           Appendix VI
                        OIG Reports Without Final Action as of March 31, 2006

 Report                              Title                           Date       Date of     Final
 Number                                                             Issued    Management    Action
                                                                               Decision     Target
                                                                                             Date
 43H0060      8(a) Continuing Eligibility Reviews                   9/30/94    12/30/94    10/30/02
 0-14         7(a) Service Fee Collections                          3/30/00     8/22/00    12/31/04
 0-19         SDB Certification Program Obligations and             6/30/00     3/30/01    9/30/02
              Expenditures
 0-30         SBA’s Administration of MBELEDF                       9/30/00     3/26/01      **
              Cosponsorship
 1-11         GPRA for the MSB&COD Program                          3/27/01     9/28/01    7/31/03
 1-12         SBA’s Information Systems Controls – FY               3/27/01       ***         **
              2000
 1-16         SBA’s Follow-up on SBLC Examinations                  8/17/01     9/25/01      **
              Evaluation of SBA’s Computer Security
 A1-06        Program                                               9/28/01     1/9/02       **
 2-12         Improvements in the SBLC Oversight Process            3/20/02      ***       9/30/05
 2-17         SBA’s FY 2001 Financial Statements –                  4/12/02    12/12/02    9/30/03
              Management Letter
 2-18         SBA’s Information Systems Controls – FY               5/6/02       ***         **
              2001
 2-29         Internal Control Over Colson Services
              Corporation’s Contract as Central Servicing           9/16/02    12/12/02    6/30/06
              Agent for SBA’s CDC Program
 3-08         SBA’s Oversight of the Fiscal Transfer Agent          1/30/03      ***         **
              for the 7(a) Loan Program
 3-10         504 Loan Program Oversight                             2/6/03     10/1/03     6/30/05
 3-14         TEP Consulting, Inc.                                  3/14/03     4/10/03    12/31/03
 3-18         Grants to the Texas Center for Women’s                3/20/03     6/4/03     10/15/03
              Business Enterprise
 3-20         SBA’s Information System Controls for FY              3/31/03      ***         **
              2002
 3-21         Equity Injection in the SBA 7(a) Loan Guaranty        3/31/03     5/27/04    2/18/05
              Program

** Target dates vary with different recommendations.

***Management decision dates vary with different recommendations.




                                                       37
                                               Appendix

                                        Appendix VI (cont.)
                        OIG Reports Without Final Action as of March 31, 2006

 Report                              Title                           Date       Date of    Final
 Number                                                             Issued    Management   Action
                                                                               Decision    Target
                                                                                            Date
 3-26         Microloan Program: Moving Toward
                                                                    5/13/03      ***         **
              Performance Management
 3-30         Audit of an Early Defaulted Loan                      6/19/03    12/21/04    10/31/05
 3-32         SBA’s Acquisition, Development and
              Implementation of the Joint Accounting and            6/30/03      ***         **
              Administrative Management System
 3-33         SBIC Oversight                                        7/1/03       ***       4/30/05
 3-34         SBA’s Compliance with JFMIP Property
                                                                    7/23/03     9/11/03    12/30/06
              Management System Requirements
 3-35         National Women’s Business Council                     7/28/03      ***          **
 3-36         Audit of an Early Defaulted Loan                      8/19/03    10/01/03    9/30/04
 4-09         Review of SBA Purchase Cards                          1/26/04    8/24/04     3/31/05
 4-13         Audit of an Early Defaulted Loan                       3/2/04     4/6/04     1/31/05
 4-15         SACS/MEDCOR: Ineffective and Inefficient               3/9/04    5/11/04     9/30/05
 4-16         SBA’s Administration of the Procurement
              Activities of Asset Sale Due Diligence                3/17/04      ***         **
              Contracts and Task Orders
 4-17         SBA’s FY 2003 Financial Statements –                  3/23/04     5/14/04      **
              Management Letter
 4-18         SBA’s Loan Application Tracking System                 4/5/04      ***         **
 4-19         SBA’s Information Systems Controls – FY               4/29/05      ***         **
              2003
 4-22         Business Development Provided by the 8(a)             6/2/04      7/14/04      **
              Business Development Program
 4-26         Audit of an Early Defaulted Loan                      6/22/04     7/1/04     3/31/05
 4-27         Audit of San Francisco District Office                                         **
              Administrative Activities Related to the Silicon      6/29/04    12/29/04
              Valley Small Center
 4-28         Audit of SBA-Guarantied Loan                           7/9/04     10/6/04    3/31/05
 4-29         Audit of an Early Defaulted Loan                      7/12/04     10/6/04    3/31/05

** Target dates vary with different recommendations.

***Management decision dates vary with different recommendations.




                                                       38
                                               Appendix

                                        Appendix VI (cont.)
                        OIG Reports Without Final Action as of March 31, 2006

 Report                              Title                           Date        Date of     Final
 Number                                                             Issued     Management   Action
                                                                                Decision    Target
                                                                                             Date
 4-32         Audit of SBA-Guarantied Loan                          7/29/04      10/6/04    3/31/05
 4-34         SBA’s Process for Complying with the FMFIA
                                                                    7/29/04      9/9/04     4/30/05
              Reporting Requirements
 4-35         Single Audit of Federal Financial Assistance
              Program Service Corps of Retired Executives           8/03/04      1/12/05    6/30/05
              (SCORE)
 4-36         Audit of an Early Defaulted Loan                      8/10/04      10/6/04    3/31/05
 4-39         Memorandum Advisory Report – the Transfer
              of Operations to the National Guaranty                8/31/04       ***       9/30/05
              Purchase Center
 4-41         Audit of Selected SBA General Support
                                                                    9/10/04       ***         **
              Systems
 4-42         Audit of SBA’s E-mail System                          9/10/04       ***         **
 4-44         SBA-Sponsored and Cosponsored Events
                                                                    9/24/04       ***       9/30/05
              Conducted by District Offices
 5-02         Advisory Memorandum Report – Independent
              Evaluation of SBA’s Information Security              10/7/04      2/4/05     9/30/05
              Program
 5-03         Review of Indirect Cost Rate of the Walsh
                                                                    10/25/04     1/12/05    6/30/05
              Group, P.A.
 5-04         Review of the Small Disadvantaged Business
                                                                    11/4/04      4/1/05       **
              Certification Program
 5-09         Memorandum Advisory Report – Pre-Demand
              and Demand Letters for Delinquent 9/11                1/11/05      3/8/05     7/10/05
              Disaster Loans
 5-12         Audit of SBA’s Information Systems Controls –
                                                                    2/24/05       ***         **
              FY 2004
 5-13         SBA’s FY 2004 Financial Statements –
                                                                    2/23/05       ***         **
              Management Letter
 5-17         SBA’s Continuity of Operations Planning
                                                                    3/30/05      5/3/05       **
              Program

** Target dates vary with different recommendations.

***Management decision dates vary with different recommendations.




                                                       39
                                               Appendix

                                        Appendix VI (cont.)
                        OIG Reports Without Final Action as of March 31, 2006

 Report                              Title                           Date       Date of    Final
 Number                                                             Issued    Management   Action
                                                                               Decision    Target
                                                                                            Date
 5-19         Advisory Memorandum Report – Consolidation
                                                                    5/20/04      ***       12/30/05
              of SBA’s Systems Subject to FISMA
 5-23         SBA’s Administration of its Special
                                                                    9/24/04      ***         **
              Appropriation Grant
 6-07         Review of the 1502 Reporting Process                  12/9/05     1/9/05

** Target dates vary with different recommendations.

***Management decision dates vary with different recommendations.




                                                       40
                                                Appendix

                                              Appendix VII
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date    Action
                                                                                                 Target
                                                                                                  Date
 43H006021      9/30/94       Establish procedures for determining                10/30/94      10/30/02
                              whether Section 8(a) participants should no
                              longer be considered economically
                              disadvantaged based on their ownership
                              interest in their 8(a) firm, the equity and
                              market value of their primary residence, and
                              the net worth of their spouses.
 1-11           3/27/01       Ensure that 8(a) performance plans include           9/28/01      7/31/03
                              indicators for determining how effectively
                              and efficiently the Section 8(a) program is
                              operating.
 2-12           3/20/02       Develop a formal policy regarding effective          8/27/02      9/30/06
                              supervisory and enforcement actions for
                              Small Business Lending Companies.
 2-18           5/6/02        Develop an Agency-wide information                   6/28/02      11/17/03
                              security plan to establish and implement the
                              policies, procedures and practices for the
                              following: (1) full integration of the
                              information security approach and
                              implementation process; (2) coordination
                              among program offices to support their
                              security needs; (3) guidance to the program
                              office to implement information system
                              security controls; and (4) methods to
                              monitor the effectiveness of each part of
                              information technology security.
 3-08           1/30/03       Initiate a new procurement action for fiscal        12/10/03      3/31/06
                              and transfer agent (FTA) activities and
                              terminate the existing contract with the FTA
                              when a new contract can be enacted.
 3-08           1/30/03       Review FTA activities and identify contract         10/15/03      11/17/03
                              costs for fees and services. Report these
                              contract costs in proposed Master Reserve
                              Fund (MRF) financial statements so future
                              FTA contracts will have historical cost data
                              for comparison purposes.

*These are a subset of the universe of recommendations without final actions.



                                                        41
                                                Appendix

                                          Appendix VII (cont.)
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date    Action
                                                                                                 Target
                                                                                                  Date
 3-10           2/6/03        Design a review guide to incorporate                10/01/03      12/31/03
                              performance aspects to address financial
                              risk, address the specific requirements of
                              the Section 504 loan program, and
                              incorporate a performance-driven scoring
                              system.
 3-33           7/1/03        Revise Standard Operating Procedure (SOP)            10/6/03       4/5/05
                              on Small Business Investment Companies
                              (SBICs) to ensure it includes requirements
                              to perform quarterly risk assessments for
                              capitally impaired SBICs, include an
                              analysis of potential for repayment of
                              outstanding leverage, and determine what
                              criteria should be used to recommend an
                              SBIC be transferred to liquidation.
 3-33           7/1/03        Revise SOP 10 06 to ensure that the                 10/24/04      9/30/05
                              implementation of restrictive operations
                              addresses: (1) appropriate levels of
                              impairment requiring restrictive operations;
                              (2) time periods SBICs should remain in
                              restrictive operations; (3) appropriateness of
                              remedies or combination of remedies that
                              should be used and under what
                              circumstances; and (4) whether forbearance
                              regulations preclude the application of
                              restrictive operations.
 3-36           8/19/03       Seek recovery of $282,447 from the 7(a)              10/1/03      9/30/04
                              lender less any subsequent recoveries.
 4-27           6/29/04       Direct the San Francisco District Director to       12/29/04       7/6/06
                              instruct the San Jose SCORE Chapter to
                              return all Silicon Valley SBDC program
                              income that was generated at the e-Center
                              and is being held at the e-Center Special
                              Account to West Valley Community
                              College.

*These are a subset of the universe of recommendations without final actions.




                                                        42
                                                Appendix

                                          Appendix VII (cont.)
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date   Action
                                                                                                Target
                                                                                                 Date
 4-28           7/9/04        Seek recovery of $142,549 from the 7(a)              10/6/04      3/31/05
                              lender.
 4-36           8/10/04       That the Associate Administrator seek                10/6/04      3/31/05
                              recovery of the SBA guaranty repair of
                              $740,000 from the 7(a) lender.
 4-39           8/31/04       Determine the appropriate number of loan             4/13/05      9/30/05
                              officers, supervisors and attorneys to be
                              assigned to the Herndon center by (1)
                              establishing the elements of quality for the
                              purchase and liquidation action review
                              process; (2) determining how much time it
                              takes to complete a quality review at each
                              level (loan officer, supervisor, attorney);
                              and (3) computing the staffing levels needed
                              to complete the estimated annual purchase
                              and liquidation action workloads at an
                              acceptable level of quality.
 5-04           11/4/04       That the Acting Associate Administrator for          4/1/05       9/30/05
                              Business Development develop and
                              implement procedures to ensure that Small
                              Disadvantaged Business (SDB) reviewers
                              properly apply all four criteria for
                              determining economic disadvantage, per 13
                              CFR 124.104(c), using 8(a) Program
                              thresholds for maximum income and total
                              assets, and industry financial performance
                              comparisons.
 5-04           11/4/04       That the Acting Associate Administrator for          4/1/05       9/30/05
                              Business Development develop and
                              implement procedures to ensure that
                              eligibility reviewers recommend denial of
                              SDB certification if a firm or any of its
                              principals do not comply with 13 CFR
                              124.108(e).

*These are a subset of the universe of recommendations without final actions.




                                                        43
                                                Appendix

                                          Appendix VII (cont.)
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date   Action
                                                                                                Target
                                                                                                 Date
 5-09           1/11/05       Revise SOP 50 51 2 to direct servicing               3/8/05       7/10/05
                              centers to send timely pre-demand and
                              demand letters to delinquent borrowers.
                              Such letters should be maintained in the
                              loan file.
 5-12           2/24/05       For all SBA internal and contractor                  4/18/05      4/15/06
                              supported general support systems and
                              major applications, e.g., Egan Mainframe,
                              SBA and Corio UNIX, Network and
                              Windows 2000; Loan Accounting System,
                              Sybase, Mainframe, JAAMS Oracle, and
                              related application functions: (1) develop
                              and document policies and procedures
                              clearly outlining what activities should be
                              logged, who should be responsible for
                              reviewing logs, what the logs should be
                              reviewed for, how often logs should be
                              reviewed, and how long logs should be
                              retained; (2) assign responsibility within the
                              Office of the Chief Information Officer
                              (OCIO) Security for the review of
                              application and general support system
                              security logs; and (3) retain audit logs for a
                              sufficient period of time (at least 90 days).
 5-12           2/24/05       For the Loan Accounting System (LAS):                6/22/05      3/31/06
                              (1) provide software developers, testers, and
                              IT management with ongoing training in
                              software development, testing and
                              acceptance procedures; (2) define sufficient
                              documentation standards for LAS, and
                              (3) define sufficient test standards and
                              procedures for LAS.
 5-17           3/30/05       Assign overall Continuity of Operations              5/3/05       6/1/05
                              Program (COOP) Business Resumption
                              Program oversight responsibilities to the
                              Office of Chief Operating Officer.

*These are a subset of the universe of recommendations without final actions.



                                                        44
                                                Appendix

                                          Appendix VII (cont.)
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date    Action
                                                                                                 Target
                                                                                                  Date
 5-17           3/30/05       That the Chief Operating Officer require             5/3/05       12/31/05
                              that personnel named in the SBA COOP
                              and BRP participate in plan testing so that
                              they understand their duties if plan
                              activation is needed.
 5-17           3/30/05       Annually test the SBA COOP and a                     5/30/05      12/31/05
                              percentage of all headquarters and field
                              office BRP every year to ensure
                              compliance, and therefore determine if the
                              plans tested are adequate. Full testing of all
                              SBA program and field office BRPs should
                              occur at least every 4 years to ensure that all
                              BRPs are sufficient and that program and
                              field offices have viable, complete and
                              tested BRPs.
 5-22           7/28/05       Revise SOP 10 07 to require the                      8/27/05      1/24/06
                              development of meaningful goals and
                              performance indicators that will measure
                              the efficiency, effectiveness, and timeliness
                              of the efforts of the Office of Small
                              Business Investment Companies (SBIC)
                              Liquidation and to include procedures to
                              monitor periodically how well the Office of
                              Liquidation (OL) is achieving its goals.
 5-22           7/28/05       Revise SOP 10 07 to require the                      8/27/05      1/24/06
                              development of meaningful goals and
                              performance indicators that will measure
                              the efficiency, effectiveness, and timeliness
                              of each liquidation method.
 5-22           7/28/05       Incorporate the goals and performance                8/27/05      1/24/06
                              indicators into the Agency’s annual
                              performance plan and use them to monitor
                              and assess the progress towards achieving
                              SBIC liquidation goals.

*These are a subset of the universe of recommendations without final actions.




                                                        45
                                                Appendix

                                          Appendix VII (cont.)
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date   Action
                                                                                                Target
                                                                                                 Date
 5-22           7/28/05       Restructure contracts with SBIC                      8/27/05      1/24/06
                              receivership agents to include performance
                              standards that will be used to assess
                              performance.
 5-22           7/28/05       Revise SOP 10 07 to require periodic                 8/27/05      1/24/06
                              assessments of each SBIC receivership’s
                              progress and operations by comparing the
                              monthly invoices and periodic status
                              meeting results to pre-set performance
                              standards.
 5-22           7/28/05       Ensure that each case file includes                  8/27/05      1/24/06
                              documented evidence that OL staff
                              considered all liquidation methods.
 5-22           7/22/05       Track the costs for each liquidation case and        8/27/05      1/24/06
                              summarize all costs by liquidation method
                              yearly. After a reasonable period of time,
                              these historical costs should be used for cost
                              analyses.
 5-22           7/22/05       Revise SOP 10 07 to (1) require a                    8/27/05      1/24/06
                              documented cost analysis be included in the
                              selection process for each SBIC liquidation
                              case. An exception would be cases for
                              which the suspicion of fraud is the
                              motivating factor for selecting the
                              liquidation method. If fraud is suspected, the
                              case file should be appropriately
                              documented; and (2) include the additional
                              liquidation methods of: (a) using
                              commission-based contractors to sell
                              acquired assets and (b) selling SBA’s equity
                              and debt interest in the SBICs.
 5-22           7/22/05       Revise SOP 10 07 to require OL staff to              8/27/05      1/24/06
                              obtain, for the sale of portfolio assets by an
                              SBIC, verification that the sale was made at
                              commercially reasonable terms.

*These are a subset of the universe of recommendations without final actions.




                                                        46
                                                Appendix

                                          Appendix VII (cont.)
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2006*

 Report         Date                        Recommendation                      Management       Final
 Number         Issued                                                          Decision Date   Action
                                                                                                Target
                                                                                                 Date
 5-22           7/22/05       Revise SOP 10 07 to require OL staff to              8/27/05      1/24/06
                              ascertain, for the sale of portfolio assets by
                              an SBIC, whether the buyer was an
                              associate of the SBIC.

*These are a subset of the universe of recommendations without final actions.




                                                        47
                                        Appendix

                                       Appendix VIII
                      6-Month Significant Recommendations Summary
                                   as of March 31, 2006

 Report              Title                 Date                  Recommendation
Number                                    Issued
6-03      Single Audit of Greenpoint    10/17/05   That the Assistant Administrator for
          Manufacturing and Design                 Administration take appropriate action in
          Center                                   accordance with Office of Management and
                                                   Budget guidance to recover questioned costs
                                                   or obtain supporting documentation.
6-07      1502 Reporting Process        12/9/05    That the Associate Deputy Administrator for
                                                   Capital Access ensure that an automated
                                                   process is initiated to identify and re-classify
                                                   all loans not reported on the monthly SBA
                                                   Form 1502 submission to delinquent status.
6-09      Audit of SBA’s                12/22/05   For future special programs where 7(a) loans
          Administration of the                    are used for nationwide disaster relief, require
          Supplemental Terrorist                   loan applications to justify how the business
          Activity Relief (STAR) Loan              was harmed by the disaster.
          Program
6-09      Audit of SBA’s                12/22/05   For future special programs where 7(a) loans
          Administration of the STAR               are used for nationwide disaster relief, require
          Loan Program                             lenders to obtain supporting documentation to
                                                   verify applicant claims of injury and provide
                                                   detailed justifications showing applicant
                                                   eligibility.
6-09      Audit of SBA’s                12/22/05   For future special programs where 7(a) loans
          Administration of the STAR               are used for nationwide disaster relief,
          Loan Program                             implement effective internal controls and
                                                   program oversight to ensure borrower
                                                   eligibility and lender compliance.
6-09      Audit of SBA’s                12/22/05   That the Office of Capital Access establish
          Administration of the STAR               criteria, in consultation with the Office of
          Loan Program                             General Counsel (OGC) to provide more
                                                   definitive guidance and examples for
                                                   purchase reviewers to use in determining
                                                   what constitutes an inadequate justification
                                                   for STAR eligibility.




                                             48
                                       Appendix

                                  Appendix VIII (cont.)
                      6-Month Significant Recommendations Summary
                                   as of March 31, 2006

 Report              Title                Date                 Recommendation
Number                                   Issued
6-09      Audit of SBA’s               12/22/05   Review guaranties the Agency has already
          Administration of the STAR              paid under the STAR loan program, obtaining
          Loan Program                            additional records from lenders as necessary,
                                                  to determine whether lenders were paid
                                                  despite the absence of adequate borrower
                                                  eligibility justifications. If lenders had
                                                  inadequate justifications, determine, in
                                                  consultation with the Office of General
                                                  Counsel, whether SBA should reclassify the
                                                  loans as 7(a) loans (if budget authority
                                                  remains available) or seek recovery of the
                                                  guaranties from the lenders.
6-10      Audit of SBA’s FY 2005       1/18/06    That the Chief Financial Officer (CFO)
          Financial Statements-                   coordinate with the Office of Field
          Management Letter                       Operations (OFO) to train SBA field office
                                                  administrative and accounting staff in
                                                  procedures for requisitioning services and
                                                  obligating funds.
6-10      Audit of SBA’s FY 2005       1/18/06    That the CFO continue to enhance its quality
          Financial Statements-                   assurance and review process to prevent and
          Management Letter                       detect errors or misstatements in amounts
                                                  recorded in SBA's financial accounting
                                                  systems. Specifically, we recommend that the
                                                  Office of Financial Assistance (OFA) clearly
                                                  identify the loan programs and amount of
                                                  estimate associated with each, and that the
                                                  Accounting Liaison and Quality Assurance
                                                  group (ALQA) strengthen its controls to
                                                  ensure that the alignment entry is recorded
                                                  correctly.
6-10      Audit of SBA’s FY 2005       1/18/06    That the CFO retain and have readily
          Financial Statements-                   available for review supporting
          Management Letter                       documentation for all transactions recorded in
                                                  the general ledger, including guaranty
                                                  cancellation requests received from the
                                                  lenders.




                                            49
                                       Appendix

                                 Appendix VIII (cont.)
                     6-Month Significant Recommendations Summary
                                  as of March 31, 2006

 Report             Title                Date                     Recommendation
Number                                  Issued
6-10      Audit of SBA’s FY 2005                     That the CFO coordinate with the Office of
          Financial Statements-                      Administration and the OFO to implement
          Management Letter                          controls to ensure that the accountable
                                                     property system remains current and accurate
                                                     throughout the year, not only after completion
                                                     of the annual inventory.
6-14      Audit of SBA-Guarantied      3/2/06        That the Associate Administrator for
          Loan to Ford’s Plumbing                    Financial Assistance seek recovery of
                                                     $26,143 from the lender on the guaranty paid,
                                                     less subsequent recoveries, for loan to Ford’s
                                                     Plumbing.
6-15      Monitoring Compliance with   3/16/06       That the Associate Deputy Administrator for
          8(a) Business Development                  Government Contracting revise the
          (BD) Regulations During                    partnership agreements so that procuring
          8(a) BD Contract                           agencies are specifically required to: (1)
          Performance                                monitor 8(a) BD companies’ compliance with
                                                     specified contract and Federal Acquisition
                                                     Regulations (FAR) requirements, and 8(a) BD
                                                     regulations;
                                                     (2) inform contracting officers and technical
                                                     representatives of their responsibilities
                                                     concerning 8(a) compliance; and
                                                     (3) acknowledge that SBA can take back the
                                                     delegation authority if it does not adequately
                                                     monitor 8(a) BD company compliance with
                                                     8(a) BD regulations.
6-15      Monitoring Compliance with   3/16/06       That the Associate Administrator for Field
          8(a) BD Regulations During                 Operations ensure surveillance reviews of
          8(a) BD Contract                           procuring agencies are conducted on a regular
          Performance                                basis. These surveillance reviews should
                                                     ensure that procuring agencies are effectively
                                                     monitoring for and enforcing compliance with
                                                     specified 8(a) BD regulations.
6-16      Audit of SBA-Guarantied      3/20/06       That the Associate Administrator for
          Loan to Furco, Inc.                        Financial Assistance seek recovery of $18,922
                                                     from the lender on the guaranty paid for loan
                                                     to Furco, Inc.




                                                50
                                       Appendix

                                 Appendix VIII (cont.)
                     6-Month Significant Recommendations Summary
                                  as of March 31, 2006

 Report              Title                Date                  Recommendation
Number                                   Issued
6-17      Audit of SBA-Guarantied      3/20/06    That the Associate Administrator for
          Loan to ScapeArt, Inc.                  Financial Assistance seek recovery of $88,269
                                                  from the lender on the guaranty paid for loan
                                                  to ScapeArt, Inc., less subsequent collections.
6-19      Review of a Company’s 8(a)   3/30/06    That the Associate Administrator for Business
          BD Program Eligibility                  Development take the necessary steps to
                                                  remove the company from the 8(a) BD
                                                  Program.
6-20      Interface Error Correction   3/31/06    That SBA coordinate with the Federal
          between NEMIS and DCMS                  Emergency Management Agency (FEMA) to
                                                  establish a Configuration Change Control
                                                  Board and updated National Emergency
                                                  Management Information System (NEMIS)-
                                                  Individuals & Households & SBA Interface
                                                  Requirements Specifications with defined
                                                  responsibilities for data element ownership,
                                                  data administration and data correction
                                                  responsibilities within both SBA's Disaster
                                                  Credit Management System (DCMS) and
                                                  FEMA's NEMIS for all records transmitted
                                                  between SBA and FEMA.
6-20      Interface Error Correction   3/31/06    That SBA coordinate with FEMA to identify
          between NEMIS and DCMS                  the conditions that will cause records to abort
                                                  status update processing. Design appropriate
                                                  program edits to prevent and report these
                                                  conditions. Update the interface
                                                  documentation to include these conditions.
6-20      Interface Error Correction   3/31/06    That SBA coordinate with FEMA to develop
          between NEMIS and DCMS                  a formalized error resolution process with
                                                  trouble tickets and mechanisms to identify
                                                  specific aborted record processing.




                                            51
                                                Appendix

                                             Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                               October 1, 2005, through March 31, 2006

                         Date         Date
 Name/Subject of                                    Location of
                        Event         Event                                    Name(s) of Cosponsor(s)
     Event                                            Event
                        Begins        Ends
 B2B Matchmaker
 Primer Workshop
                                                                       Greater Valley Chamber of
 and B2B               4/12/06      5/17/06      Fairfield, CT
                                                                       Commerce
 Matchmaker
 Conference
                                                 Bismarck &
                                                 Fargo, ND, Rapid
                                                 City & Sioux
                                                 Falls, SD,
 Cyber Security Is                                                FBI, National Institute of Standards
                       6/5/06       6/30/06      Minneapolis, MN,
 Good Business                                                    and Technology
                                                 Colorado Springs
                                                 & Denver, CO,
                                                 Cheyenne &
                                                 Casper, WY
                                                                  City of San Jose, San Jose State
                                                                  University Foundation, Cisco
                                                                  Systems, Inc., BAAGGL, Chevron
 Small Business
                       3/16/06      7/31/06      San Jose, CA     Corporation, Greater Bay Bank
 Training
                                                                  Corporation, Microsoft Corporation,
                                                                  Sprint Nextel Corporation, Bridge
                                                                  Bank National Association
 Grow Your
 Business
 Workshops and
                                                                       The County of San Bernardino
 San Bernardino        3/21/06      11/21/06     Cucamonga, CA
                                                                       Economic Development Agency
 County 2006
 Business
 Workshops
 Government
                                                                       Maine Procurement Technical
 Contracting           3/14/06      9/26/06      Augusta, ME
                                                                       Assistant Center
 Seminars

* The Agency provided this information. It has not been verified by the OIG.




                                                       52
                                                Appendix

                                          Appendix IX (cont.)
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                               October 1, 2005, through March 31, 2006

                         Date         Date
 Name/Subject of                                    Location of
                        Event         Event                                    Name(s) of Cosponsor(s)
     Event                                            Event
                        Begins        Ends
 10th Bi-Annual
 Small Business
 Procurement           4/28/06      4/28/06      Upton, NY             Brookhaven National Laboratory
 Fair/High Tech
 Matchmaker
 SBA Day               3/8/06       3/8/06       Victorville, CA       Desert Community Bank
                                                                       Office of Senator Patrick Leahy, US
                                                                       Department of Labor, Women’s
                                                                       Bureau, VT Agency of
                                                                       Transportation, VT Commission on
                                                                       Women, VT Secretary of State, VT
 VT 9th Annual
                                                                       Women’s Business Center, Central
 Women’s
                                                                       VT Community Action Council, VT
 Economic              11/5/05      11/5/05      Randolph, VT
                                                                       Attorney General, VT Department of
 Opportunity
                                                                       Labor, VT Agency of Human
 Conference
                                                                       Services, Economic Services
                                                                       Division, VT Interactive Television,
                                                                       VT Department of Economic
                                                                       Development, VT Manufacturing
                                                                       Extension Center and VT SBDC
 Mentor/Protégé
 Program and                                                           Women's Employment Opportunity
                       2/23/05      11/28/06     East Point, GA
 Smart Business                                                        Project, Inc.
 Talk Workshops
 Free Surety
 Bonding/Working                                                       New York City Department of Small
                   3/2/06           3/2/06       New York, NY
 Capital Financing                                                     Business Services
 Conference
 How to Start and
                                                                       Memorial Baptist Church, Central
 Manage a Small    2/18/06          2/18/06      Baltimore, MD
                                                                       Region MD SBDC Subcenter
 Business
 The Black
                                                                       Bank One, Alpha Phi Alpha
 Business          2/28/06          2/28/06      Detroit, MI
                                                                       Fraternity, Inc.
 Conference 2006

* The Agency provided this information. It has not been verified by the OIG.




                                                       53
                                                Appendix

                                          Appendix IX (cont.)
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                               October 1, 2005, through March 31, 2006

                         Date         Date
  Name/Subject of                                   Location of
                        Event         Event                                    Name(s) of Cosponsor(s)
      Event                                           Event
                        Begins        Ends
 Business
 Planning Training     2/06         8/31/07      World Wide Web        Palo Alto Software, Inc.
 Tutorial
 Federal
 Contracting                                                           Colegio de Ingenieros y
                       2/3/06       2/3/06       San Juan, PR
 Matchmaking                                                           Agrimensores de Puerto Rico
 Event
 Entrepreneurship
 & Revitalization
                                                                       The Kauffman Foundation and Public
 in New Orleans        4/11/06      4/11/06      New Orleans, LA
                                                                       Forum Institute
 & the Gulf
 Region
 Publication of
 West Virginia                                   State of Virginia
 Small Business        3/1/06       12/31/06     and World Wide        WV Publishing, LLC
 Resource Guide                                  Web
 and Website
                                                                       SCORE, Sam's Club, Raytheon
                                                                       Corporation, BAE Systems, Cisco
                                                                       Systems, Fiducial, Inc., Microsoft
                                                                       Corporation, Johnson & Johnson,
                                                                       Symantec Corporation, Verizon
 Small Business
                       4/12/06      4/13/06      Washington, DC        Communications, Inc., KBR, Intel
 Week 2006
                                                                       Corporation, IBM Corporation, Aetna
                                                                       Foundation, Nationwide Financial
                                                                       Services, Administaff, U.S. Postal
                                                                       Service, The Ewing Marion
                                                                       Kauffman Foundation
 Minority
 Business                                                              National Football League, Detroit
                       2/1/06       2/1/06       Detroit, MI
 Leadership                                                            Urban League
 Forum

* The Agency provided this information. It has not been verified by the OIG.




                                                       54
                                                Appendix

                                          Appendix IX (cont.)
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                               October 1, 2005, through March 31, 2006

                         Date         Date
  Name/Subject of                                   Location of
                        Event         Event                                    Name(s) of Cosponsor(s)
      Event                                           Event
                        Begins        Ends
                                                                       Hewlett Packard, SCORE,
 Business                                        San Francisco,
                                                                       Administaff LP, MasterCard
 Matchmaking and                                 CA, Houston,
                                                                       International, American Airlines,
 Business              1/06         9/30/07      TX, Washington,
                                                                       FedEx, eAgency, Aflac, AMD,
 Matchmaking                                     DC and Miami,
                                                                       Lockheed Martin Aeronautics,
 Online                                          FL
                                                                       Chevron
 Project Restore
 HOPE/Small            12/05        12/30/06     Call Centers          Operation HOPE, Inc.
 Business
                                                                       Nassau County Office of Minority
 Business
                                                                       Affairs, Office of Economic
 Leadership            12/1/05      2/7/06       Freeport, NY
                                                                       Development and Freeport Memorial
 Workshop Series
                                                                       Library
 Fundamentals of
 Retirement            11/29/05     5/18/06      Washington, DC        Fidelity Brokerage
 Income Planning
 Development of
 Educational
 Products; Loss                                                        Nationwide Mutual Insurance
                       10/05        10/07        Columbus, OH
 Control Guide                                                         Company
 and Disaster
 Recovery Guide
 Minority
 Enterprise                                                            U.S. Department of Commerce,
                       11/17/05     11/17/05     Los Angeles, CA
 Development                                                           MBDA City of Los Angeles
 Week Brunch
                                                 South Paris,
                                                 Farmington,
                                                 Skowhegan,
 HUBZONE
                       11/05        12/2/05      Dover-Foxcroft,       The Office of Olympia Snowe
 Forums
                                                 Presque Isle,
                                                 Houlton, and
                                                 Machias, ME

* The Agency provided this information. It has not been verified by the OIG.




                                                       55
                                                Appendix

                                          Appendix IX (cont.)
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                               October 1, 2005, through March 31, 2006

                         Date         Date
  Name/Subject of                                   Location of
                        Event         Event                                    Name(s) of Cosponsor(s)
      Event                                           Event
                        Begins        Ends
 Federal
 Contracting
                       11/14/05     11/14/05     San Juan, PR          Municipality of San Juan
 Matchmaking
 Event
 MED Week
 Awards
 Reception, MED
 Week
                                                                       Hispanic American Chamber of
 Presentation of       11/14/05     11/18/06     Cranston, RI
                                                                       Commerce
 Awards, A Series
 of Small Business
 Workshop and
 Business Expo
 Strategies for                                                        VT Agency of Transportation, VT
 Winning                                                               Dept. of Buildings and General
 Government                                                            Services, VT Department of
 Contracts:                                                            Economic Development, VT Agency
                       2/2/06       2/2/06       Burlington, VT
 Practical Tips and                                                    of Natural Resources, VT
 Hands-On-Help                                                         Manufacturing Extension Center, VT
 for Small                                                             SBDC and the Federal Highway
 Business                                                              Administration
 Procurement
 Matchmaking                                                           El Paso Hispanic Chamber of
 Symposium and         10/27/05     10/27/05     El Paso, TX           Commerce and El Paso Community
 Awards                                                                College
 Luncheon
                                                                       Central Rhode Island Chamber of
                                                                       Commerce, Cranston Chamber of
 Disaster
                                                                       Commerce, Newport County
 Readiness
                       2/28/06      4/27/06      Cranston, RI          Chamber of Commerce, Newport
 Workshops for
                                                                       County Chamber of Commerce, Code
 Small Business
                                                                       Red Business Continuity Services,
                                                                       LLC

* The Agency provided this information. It has not been verified by the OIG.




                                                       56
                                                Appendix

                                          Appendix IX (cont.)
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                               October 1, 2005, through March 31, 2006

                         Date         Date
  Name/Subject of                                   Location of
                        Event         Event                                    Name(s) of Cosponsor(s)
      Event                                           Event
                        Begins        Ends
 Disaster
 Recovery
                                                                       University of Louisiana at Monroe,
 Assistance for
                                                                       The Good Work Network, Urban
 Small Businesses      10/05        9/30/06      New Orleans, LA
                                                                       League of Greater New Orleans-
 Affected by
                                                                       Women's Business Resource Center
 Hurricanes
 Katrina and Rita
 Small Business
                       10/22/05     10/22/05     Lynchburg, VA         Liberty University
 Symposium

 SBA New York
 Monthly Small
                       10/6/05      3/16/06      New York, NY          KIP Business Report
 Business Success
 Series

* The Agency provided this information. It has not been verified by the OIG.




                                                       57
                                      Appendix

                                      Appendix X
                                Legal Actions Summary
                        October 1, 2005, through March 31, 2006

                                                                                      Investigated
State   Program   Alleged Violation(s) Prosecuted           Legal Action
                                                                                      Jointly With:
CA      BL        The former owner of a grocery market      Former owner              FBI
                  submitted altered Federal income tax      sentenced to
                  returns as part of his loan application   12 months and one
                  for a $1 million SBA-guarantied loan.     day in prison, 5 years
                                                            probation, a $10,000
                                                            fine, and $197,463.76
                                                            in restitution.
CA      BL        The owner of a telecommunications         Owner sentenced to        GCPD
                  firm provided false information about     5 years probation,
                  his company’s financial condition,        $50,000 in
                  number of employees, and length of        restitution, and a
                  time in existence during the loan         $200 fine.
                  application process for a $50,000 SBA
                  Express loan.
DC      SBIC      The former manager of a Small             Owner sentenced to        FBI
                  Business Investment Company (SBIC)        70 months in prison,
                  converted for personal use money          5 years supervised
                  received from the SBA. The SBIC was       release, a $1,001 fine,
                  licensed and funded by SBA to lend        and restitution of
                  money to start-up technology              over $1.9 million.
                  businesses.
DC      GC        A company, providing technology           Company paid a            GSA/OIG
                  products and services to the              $1 million civil
                  Government, misrepresented its size       settlement.
                  status on its application for inclusion
                  on GSA’s Multiple Award Schedule.
IL      BL        The former president of a gas station/    Former president was      DHS/ICE
                  convenience store, who obtained a         indicted and
                  $160,000 SBA-guarantied loan, was         subsequently
                  charged with falsely claiming to be a     arrested.
                  U.S. citizen on multiple loan
                  application documents.
IL      BL        The former owner of an electrical         Owner charged by          FBI
                  supply store allegedly falsified a        criminal information.
                  company tax return and forged his
                  accountant’s signature. The former
                  owner’s actions were done in an effort
                  to assist the prospective buyers in
                  securing an SBA-guarantied loan of
                  $1.1 million to purchase the business.


                                             58
                                      Appendix

                                   Appendix X (cont.)
                                Legal Actions Summary
                        October 1, 2005, through March 31, 2006

                                                                                      Investigated
State   Program   Alleged Violation(s) Prosecuted            Legal Action
                                                                                      Jointly With:
IL      BL        An SBA loan packager and an attorney       Loan packager            FBI, IRS-
                  were involved in a multi-faceted fraud     sentenced to 1 year      CID
                  scheme relating to a $1.25 million SBA     probation with
                  business loan for the purchase of an       6 months home
                  Illinois restaurant.                       detention and
                                                             electronic
                                                             monitoring. He was
                                                             also ordered to cease
                                                             any further
                                                             involvement in SBA
                                                             programs and to pay
                                                             a $2,400 fine. The
                                                             attorney received
                                                             12 months plus one
                                                             day in prison, 2 years
                                                             supervised release,
                                                             and a $40,000 fine.
IL      BL        The president of a graphic art studio      President pled guilty.   DHS/ICE
                  agreed to create a counterfeit U.S.
                  Certificate of Naturalization for an
                  SBA loan applicant. The applicant was
                  attempting to secure a $594,000 SBA
                  loan through the 504 loan program.
                  The applicant and his wife were
                  previously indicted.
MI      BL        The president and secretary of a gas       President and            DHS/ICE
                  station and convenience store falsely      secretary pled guilty.
                  represented that they made an equity
                  injection of $130,000 in order to obtain
                  a $1.175 million SBA-guarantied loan.
                  The president was previously charged
                  with falsely claiming to be a U.S.
                  citizen on his loan application.




                                             59
                                      Appendix

                                   Appendix X (cont.)
                                Legal Actions Summary
                        October 1, 2005, through March 31, 2006

                                                                                         Investigated
State   Program   Alleged Violation(s) Prosecuted             Legal Action
                                                                                         Jointly With:
MI      BL        The president and secretary of an auto      All three defendants       DHS/ICE
                  service center and a former owner of a      indicted and warrants
                  construction company allegedly              issued for their arrest.
                  conspired to obtain a $1.1 million
                  SBA-guarantied loan for the service
                  center. The three are charged with
                  falsely claiming that the construction
                  company had completed $210,000 in
                  repairs and renovations to the auto
                  service center prior to the loan closing.
MI      BL        The president of a gas station and          President indicted.        DHS/ICE
                  convenience store allegedly failed to
                  disclose his criminal record when
                  applying to assume an existing SBA-
                  guarantied loan of about $640,000.
MO      BL        The former president and secretary of a     Former president and None
                  child care center falsified the required    secretary debarred
                  equity injection in order to obtain a       from participating in
                  $311,000 SBA-guarantied loan.               Federal
                                                              programs/procurement
                                                              transactions for a
                                                              period of 3 years.
NV      BL        Co-owners of four floral shops              Both owners ordered DSDS,
                  submitted fraudulent applications for       to pay joint          LVPD, USSS
                  six SBA Express loans using false           restitution of
                  identity information and financial data.    $200,000.

NY      DL        In the wake of the 9/11 terrorist           Owner indicted. One        USPIS
                  attacks, the owner of a New York            vendor charged by
                  business applied for, and received, a       criminal information.
                  $646,900 SBA disaster loan for his
                  company, a seller of motor vehicles
                  and parts to the United Nations.
                  Instead of paying off vendors as he had
                  agreed to do, the borrower allegedly
                  forged the endorsement of the vendors
                  in order to use the funds for a new
                  business he had started.




                                              60
                                      Appendix

                                   Appendix X (cont.)
                                Legal Actions Summary
                        October 1, 2005, through March 31, 2006

                                                                                       Investigated
State   Program   Alleged Violation(s) Prosecuted             Legal Action
                                                                                       Jointly With:
NY      DL        A former attorney received an SBA           Former attorney          IRS
                  disaster loan for $247,000 based on his     sentenced to
                  claim of lost revenue as a result of the    18 months in prison,
                  2001 terrorist attacks in New York          3 years supervised
                  City. The attorney claimed he was not       release, and ordered
                  able to utilize his downtown office for     to pay $18,500 in
                  6 weeks due to its proximity to the         outstanding
                  World Trade Center. The investigation       restitution.
                  revealed that his firm was never
                  located at the address he provided.
NY      DL        When applying for disaster loans of         Owner was sentenced      USPIS
                  $216,800 and $80,000, the owner of          to 3 years probation
                  two telecommunications firms                and ordered to pay
                  misrepresented that his companies           $80,000 in
                  were located at the World Trade Center      restitution.
                  on September 11, 2001.
NY      DL        A woman submitted disaster loan             Woman sentenced to       DHS/OIG
                  applications to SBA and FEMA,               4 months home
                  falsely representing that her furniture     confinement, 3 years
                  and car had been destroyed by debris        probation, and
                  from the World Trade Center terrorist       $1,168 in restitution.
                  attacks on September 11, 2001.
PR      GC        An attorney allegedly interfered with       Attorney convicted       GSA/OIG
                  and obstructed the investigation into       by jury trial on
                  illegal kickback payments made by his       conspiracy and
                  client, an SBA 8(a) engineering             obstruction charges.
                  contractor. His client previously pled      Restaurant manager
                  guilty to paying kickbacks to a former      convicted by jury
                  restaurant manager in exchange for          trial and sentenced to
                  electrical contract jobs, and is awaiting   1 year and 1day in
                  sentencing.                                 prison and 2 years
                                                              supervised release.




                                              61
                                     Appendix

                                   Appendix X (cont.)
                                Legal Actions Summary
                        October 1, 2005, through March 31, 2006

                                                                                    Investigated
State   Program   Alleged Violation(s) Prosecuted            Legal Action
                                                                                    Jointly With:
SC      DL        The owner of a manufactured home           Owner indicted.        FBI
                  sales dealership obtained a disaster
                  loan for $487,600 for economic
                  injuries resulting from the 9/11
                  terrorist attacks. The owner is charged
                  with falsely representing that his
                  finance company was located in New
                  York City and had stopped financing
                  manufactured homes due to the
                  attacks.
TN      BL        The president of a pager and cellular      President convicted    None
                  telephone retailer induced a bank and      by jury trial.
                  SBA to fund a $100,000 SBA-
                  guarantied loan by submitting invoices
                  that inflated the selling price of the
                  business and the value of the equipment
                  being purchased. She then pocketed the
                  difference between the actual price and
                  the reported sales price.
TX      BL        A borrower for a food mart                 Borrower sentenced     DHS/ICE
                  fraudulently obtained with his brother a   to 3 years probation
                  $1 million SBA-guarantied loan and a       and a $5,000 fine.
                  $390,000 companion loan. The               His brother was
                  borrower represented that he used          sentenced to 3 years
                  personal assets to purchase real estate    probation and a
                  for the food mart. Bank records            $71,000 fine. Both
                  indicate the borrower received a           have been debarred
                  majority of the money from his brother     from doing business
                  who already had an SBA-guarantied          with SBA.
                  loan.
TX      BL        When applying for a $286,200 SBA-          Borrower sentenced     DHS/ICE,
                  guarantied loan, a borrower for a          to 18 months           TEXAS-
                  convenience store falsely claimed to be    probation.             ABC
                  a U.S. citizen, failed to disclose a
                  pending lawsuit, falsified the origin of
                  the cash injection, and provided false
                  documentation.




                                             62
                                     Appendix

                                   Appendix X (cont.)
                                Legal Actions Summary
                        October 1, 2005, through March 31, 2006

                                                                                     Investigated
State   Program   Alleged Violation(s) Prosecuted           Legal Action
                                                                                     Jointly With:
TX      BL        A restaurant owner inflated personal      Owner sentenced to       FBI, IRS
                  property values and net worth to          5 years probation and
                  influence financial institutions to       ordered to pay over
                  approve two SBA-guarantied loans and      $1.1 million in
                  a bank line of credit totaling            restitution.
                  $1.078 million. He then utilized
                  financial proceeds from the loans for
                  personal expenses.
TX      BL        A loan broker, an escrow company          Loan broker              FBI
                  owner, a relative of a borrower, and      sentenced to
                  several other co-conspirators falsely     41 months in prison
                  obtained nine SBA loans totaling          and 3 years
                  $9.5 million for convenience stores.      probation. Escrow
                  SBA’s guarantied portion was over         company owner
                  $6.5 million. The investigation           sentenced to
                  revealed a conspiracy in which            60 months in prison
                  borrowers would submit false and          and 3 years
                  fraudulent documents, artificially        supervised release.
                  inflate checking account deposits, and    The relative of
                  use loan proceeds to fund equity          borrower sentenced
                  injections when applying for loans.       to 15 months in
                                                            prison and 2 years
                                                            supervised release.
                                                            These defendants
                                                            were ordered to pay a
                                                            total of $11,813,127
                                                            jointly with two other
                                                            co-conspirators.
TX      BL        A business owner allegedly falsified      Owner and a co-          TEXAS-
                  the capital injection to obtain a         conspirator were         ABC
                  $640,000 SBA-guarantied loan to           charged in a criminal
                  purchase several food stores, and then    complaint.
                  transferred ownership of the properties
                  without notifying the SBA.
UT      BL        Three corporate officers of a landscape   All three indicted.      None
                  company allegedly failed to disclose
                  owing delinquent payroll taxes when
                  they applied for two separate SBA
                  loans totaling $470,100.




                                             63
                                             Appendix

                                          Appendix X (cont.)
                                       Legal Actions Summary
                               October 1, 2005, through March 31, 2006

                                                                                            Investigated
 State     Program       Alleged Violation(s) Prosecuted           Legal Action
                                                                                            Jointly With:
 VA        GC            The former president and vice             Former president         FBI, DCIS,
                         president of a construction company       sentenced to             EPA-CID,
                         conspired to make misrepresentations      5 months in prison       Army-CID,
                         to SBA in order to maintain the           and a $1 million fine;   NASA/OIG,
                         company’s 8(a) eligibility status. They   his construction         DCAA
                         also conspired with the general           company was ordered
                         manager of an environmental services      to pay a $500,000
                         company to provide false hazardous        fine. Former vice
                         environmental training certificates to    president received
                         the government.                           21 months in prison
                                                                   and a $1.5 million
                                                                   fine. Former general
                                                                   manager received
                                                                   3 months in prison
                                                                   and a $10,000 fine.
                                                                   In addition, the vice
                                                                   president and the
                                                                   environmental
                                                                   services company
                                                                   have been suspended
                                                                   from future
                                                                   Government
                                                                   contracting.
 VI        DL            The co-owners of a house located in       First owner was          DHS/OIG
                         the Virgin Islands falsely represented    sentenced to
                         to the SBA and other government and       10 months in prison,
                         insurance entities that their house had   3 years supervised
                         sustained hurricane damage. In reality,   release, and $150,000
                         the house had been damaged by a           in restitution. The
                         previous hurricane, and they had          other owner received
                         purchased it with such damage in “as      1 year of probation
                         is” condition.                            and a $100 fine.
Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a)
Business Development Joint-investigation Federal Agency Acronyms: DCAA=Defense Contract Audit Agency;
Army-CID=Army Criminal Investigation Division; DCIS=Defense Criminal Investigative Service;
DHS/ICE=Department of Homeland Security/Immigration and Customs Enforcement; DHS/OIG=Department of
Homeland Security OIG; DSDS=Department of State Diplomatic Security; EPA-CID=Environmental Protection
Agency Criminal Investigation Division; FBI=Federal Bureau of Investigation; GCPD=Glendale California Police
Department; GSA/OIG=General Services Administration OIG; IRS-CID=Internal Revenue Service Criminal
Investigation Division; LVPD=Las Vegas Police Department; NASA/OIG=National Aeronautics and Space
Administration OIG; TEXAS-ABC=Texas Alcoholic Beverage Commission; USPIS=United States Postal
Inspection Service; USSS=United States Secret Service



                                                    64
                                                   Appendix

                                                  Appendix XI
                                          Small Business Administration
                                           Office of Inspector General



                                                        Inspector
                                                         General


                                                                                 Counsel Division

                                                          Deputy
                                                         Inspector
                                                          General




                                                                                                      Management and
       Auditing Division                                Investigations Division
                                                                                                      Policy Division




Credit Programs      Financial          Business Development         Western Region      Central Region     Eastern Region
Group                Management & IT    Programs Group
                     Group

                                                                       Denver               Dallas               Atlanta
      Atlanta          Washington, DC       Washington, DC

                                                                       Los Angeles         Chicago               Miami
     Chicago

                                                                       Seattle              Houston               New York
      Dallas

                                                                                            Kansas City          Philadelphia
   Los Angeles

                                                                                                                 Washington, DC
  Washington, DC




                                                               65
                       Make A Difference
To promote integrity, economy, and efficiency, we encourage you to report
instances of fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                    CALL
                           1-800-767-0385 (Toll Free)




                            Write or Visit
                      U.S. Small Business Administration
                          Office of Inspector General
                            Investigations Division
                       409 Third Street, SW. (5th Floor)
                            Washington, DC 20416

                       Or E-mail Us at OIG@SBA.GOV




*Upon request, your name will be held in confidence.
